Office of Material Loss Reviews
Report No. MLR-11-007


Material Loss Review of Westernbank
Puerto Rico, Mayaguez, Puerto Rico




                                  December 2010
                                     Executive Summary

                                     Material Loss Review of Westernbank Puerto
                                     Rico, Mayaguez, Puerto Rico
                                                                                    Report No. MLR-11-007
                                                                                           December 2010

Why We Did The Audit
On April 30, 2010, the Office of the Commissioner of Financial Institutions of the Commonwealth of
Puerto Rico (OCFI) closed Westernbank Puerto Rico (Westernbank), Mayaguez, Puerto Rico and named
the FDIC as receiver. On June 2, 2010, the FDIC notified the Office of Inspector General (OIG) that
Westernbank’s total assets at closing were $11.1 billion and the estimated loss to the Deposit Insurance
Fund (DIF) was $3.3 billion. As required by section 38(k) of the Federal Deposit Insurance Act, and as
amended by the Dodd-Frank Wall Street Reform and Consumer Protection Act, the OIG conducted a
material loss review of the failure of Westernbank.

The audit objectives were to (1) determine the causes of Westernbank’s failure and the resulting material
loss to the DIF and (2) evaluate the FDIC’s supervision of Westernbank, including the FDIC’s
implementation of the Prompt Corrective Action (PCA) provisions of section 38.


Background
Westernbank was founded as a mutual federal savings bank in 1958, and was then converted to stock
ownership in 1985 before becoming a state-chartered commercial bank in 1994. The bank was a wholly-
owned subsidiary of W Holding Company, Inc. and headquartered in Mayaguez, Puerto Rico. The bank
was the second largest bank in Puerto Rico, operating through a network of 48 bank branches, including
25 branches in the western and southwestern regions of Puerto Rico and 14 branches in the San Juan
metropolitan area. The bank’s initial lending strategy emphasized long-term fixed rate 1-4 residential
mortgage loans, but after becoming a commercial bank, Westernbank shifted its focus to commercial
lending. Specifically, Westernbank pursued asset-based lending (ABL), a type of commercial and
industrial lending, and commercial real estate (CRE) lending, including acquisition, development, and
construction loans (ADC). Puerto Rico’s economy has been in the midst of a severe recession for a
number of years. Specifically, the Puerto Rico Planning Board reported that the gross national product
for the fiscal year ending June 2010 marked the island’s fourth consecutive year of economic contraction.

In the 2 years leading up to the Puerto Rico recession, the bank maintained about half of its portfolio in
CRE loans, mostly owner occupied, with relatively equal portions in ADC, residential real estate,
commercial and industrial, which included ABL, and other loan types. Loans represented about half of
the bank’s total assets, while the securities portfolio represented about 40 percent. Westernbank, like
other banks in Puerto Rico, was also highly dependent on brokered deposits as a result of changes in tax
laws. Over the past decade, insured depository institutions in Puerto Rico have become increasingly
dependent upon non-core funding, primarily brokered deposits. U.S. tax policy and legislation enacted by
the Puerto Rico government, and competition from other banks and financial institutions, have been
identified as contributing factors to the funding structure of Puerto Rico banks.


Audit Results

Causes of Failure and Material Loss

Westernbank failed because the Board and management’s lending strategy focused on growth without
ensuring that credit risk management practices kept pace with the changing loan portfolio. Deficiencies


                                 To view the full report, go to www.fdicig.gov
   Executive Summary
                                      Material Loss Review of Westernbank Puerto
                                      Rico, Mayaguez, Puerto Rico
                                                                                      Report No. MLR-11-007
                                                                                             December 2010

in these practices, particularly as they related to the CRE and ADC portfolios, played a key role in the
bank’s failure as the portfolio grew significantly just ahead of Puerto Rico’s recession. The weak
economic environment and strained real estate market accelerated portfolio deterioration.

The Board and management did not address examiner criticisms of weak underwriting and credit
administration practices in the ABL portfolio until the 2007 examination, after those practices had
contributed to an increase in adverse classifications in ABL. Over that same timeframe, management
pursued significant growth in the CRE and ADC portfolios. As Puerto Rico’s economy sank into a severe
recession, ABL, CRE, and ADC loans that were originated and renewed based on the bank’s weak loan
underwriting and deficient credit administration practices caused the precipitous deterioration of asset
quality and increasingly high levels of adversely classified assets. These conditions necessitated a large
increase in provisions for losses, which stressed earnings and eventually eroded the bank’s capital. The
erosion of capital negatively impacted the bank’s liquidity as the bank’s ability to renew its brokered
deposits became restricted and eventually prohibited. Ultimately, OCFI closed Westernbank because of
the bank’s inadequate liquidity brought on by the bank’s poor asset quality, poor earnings, and inability to
obtain additional capital.

The FDIC’s Supervision of Westernbank

Historically, Westernbank was well-rated and the bank’s financial condition was considered to be sound.
Examiners did, however, criticize management’s administration of the bank’s ABL portfolio in the 2005
examination and repeated those criticisms and noted additional underwriting issues in the 2006
examination. Management’s failure to address examiner recommendations from the 2005 examination
regarding the loan review function led to criticism from the bank’s external auditors and resulted in
examiners downgrading the Asset Quality and composite ratings from a “1” to “2” at the 2006
examination. At the 2007 examination, examiners identified significant asset quality problems in the
ABL portfolio and attributed the overall deterioration in asset quality to the Board’s failure to actively
oversee management of this type of lending. Examiners again downgraded the bank’s composite and
component ratings during that examination signaling some degree of supervisory concern, and
Westernbank agreed to an informal supervisory action aimed at correcting identified deficiencies.
Although Westernbank’s Board and management took steps to address ABL portfolio problems,
deterioration emerged in the ADC and CRE portfolios as the economy in Puerto Rico worsened.

Our review focused on the period 2005 to 2010. Notably, in 2006, the FDIC’s New York Regional Office
(NYRO) recognized the need to closely monitor economic and banking trends in Puerto Rico, and those
monitoring efforts led to the development of a comprehensive supervisory strategy for Puerto Rico in
2008 and 2009. As part of that broader strategy, the FDIC’s supervisory attention to Westernbank was
extensive and comprised of the following elements: (1) annual onsite safety and soundness examinations
performed jointly with OCFI, (2) offsite monitoring activities, and (3) targeted asset quality reviews and a
horizontal review of loan classifications. The FDIC’s supervisory strategy was also instrumental in
implementing a well-coordinated resolution of the three Puerto Rico banks that were closed in April 2010.

A general lesson learned with respect to weaknesses in risk management practices, particularly as they
relate to the lending function in general and CRE and ADC concentrations, is that early supervisory
intervention is prudent, even when an institution is considered Well Capitalized and has few classified
assets. In that regard, the FDIC began downgrading component and composite ratings at the 2006
examination and further downgraded ratings at subsequent examinations. In addition, the FDIC executed



                                  To view the full report, go to www.fdicig.gov
    Executive Summary
                                     Material Loss Review of Westernbank Puerto
                                     Rico, Mayaguez, Puerto Rico
                                                                                     Report No. MLR-11-007
                                                                                            December 2010

an informal enforcement action following the 2007 examination and a formal enforcement action
following the 2008 examination. In hindsight, initiating an informal enforcement action in response to
the 2006 examination and imposing a stronger supervisory action in response to the 2007 examination
findings may have been prudent, considering that:

   repeated weaknesses were identified in the underwriting and administration of the ABL portfolio at a
    time when the bank was increasing its emphasis on CRE and ADC;
   Westernbank’s increasing CRE and ADC concentrations made it vulnerable to declining economic
    conditions;
   the FDIC identified Puerto Rico’s economy as an emerging risk area in March 2006;
   a strong internal loan review and grading system needed to be in place to ensure timely identification
    of developing problems and an accurate Allowance for Loan and Lease Losses; and
   unique market factors existed in Puerto Rico, including the degree of competiveness among
    institutions, that made ADC lending even riskier than in other U.S. markets.

In addition, recognizing that banks in Puerto Rico faced unique challenges in attracting core deposits,
greater supervisory attention and earlier criticism of the bank’s overall liquidity risk profile might also
have been prudent. The 2005, 2006, and 2007 examination reports discussed and included
recommendations related to liquidity contingency planning and liquidity stress testing. However, earlier
action to address the bank’s heavy reliance on brokered deposits could have reduced the bank’s high
liquidity risk profile and limited, to some extent, the amount of its CRE and ADC lending. The FDIC has
taken a number of actions to address banks that have risk profiles similar to Westernbank, including
instituting a training initiative on forward-looking supervision and issuing additional supervisory
guidance on CRE and ADC concentrations and funds management.

With respect to PCA, based on the supervisory actions taken, the FDIC properly implemented applicable
PCA provisions of section 38 in a timely manner.


Management Response

After we issued our draft report, management provided additional information for our consideration, and
we revised our report to reflect this information, as appropriate. On December 2, 2010, the Director,
Division of Supervision and Consumer Protection (DSC), provided a written response to the draft report.
DSC reiterated the OIG’s conclusions regarding the causes of Westernbank’s failure. With regard to our
assessment of the FDIC’s supervision of Westernbank, DSC summarized its supervisory approach and the
progression of component and composite rating downgrades that began in 2006. DSC’s response also
described enforcement actions taken at subsequent examinations because of the bank’s failure to
adequately address supervisory recommendations and enforcement measures. Further, DSC’s response
stated that supervisory guidance has been issued to enhance supervision of institutions, such as
Westernbank, with heavy reliance on volatile funding sources. In addition, DSC stated it has completed
an examiner training program, as discussed in our report, which emphasizes a forward-looking approach
when assessing a bank’s risk profile. The early use of informal enforcement actions to pursue corrective
of weak risk management practices is consistent with forward-looking supervision.




                                 To view the full report, go to www.fdicig.gov
                               Contents
                                                                   Page
Background                                                           2

Causes of Failure and Material Loss                                  5
  Board and Management’s Growth Strategy                             6
  Risk Management Policies and Practices                            10
  Reliance on Wholesale Funding                                     16

The FDIC’s Supervision of Westernbank                               17
   Supervisory History                                              19
   Supervisory Response to Board and Management’s Lending
      Strategy and Risk Management Practices                        22
   Supervisory Response to Reliance on Wholesale Funding Sources    26
   Implementation of PCA                                            29

Corporation Comments                                                31

Appendices
  1. Objectives, Scope, and Methodology                             32
  2. Glossary of Terms                                              35
  3. Acronyms                                                       41
  4. Examiner Comments in Reports of Examination                    43
  5. Corporation Comments                                           44

Tables
   1. Financial Condition of Westernbank, 2005 to 2010               3
   2. Westernbank’s Net Non-Core Funding Dependency Ratio           17
   3. Examination History of Westernbank, 2005 to 2010              19
   4. Westernbank’s Capital Categories, 2008 to 2010                30

Figures
   1. Westernbank’s Branch Network                                   2
   2. Westernbank’s Growth in ADC, CRE, and C&I, 2001 to 2010        6
   3. Westernbank’s ADC and CRE Lending as a Percentage of Total     8
      Capital Compared to Peer, 2004 to 2010
   4. Westernbank’s Loan and Lease Charge-offs, 2005 to 2010         9
Federal Deposit Insurance Corporation                                                Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, Virginia 22226                                             Office of Inspector General


DATE:                                           December 2, 2010

MEMORANDUM TO:                                  Sandra L. Thompson, Director
                                                Division of Supervision and Consumer Protection

                                                /Signed/
FROM:                                           Stephen M. Beard
                                                Assistant Inspector General for Material Loss Reviews

SUBJECT:                                        Material Loss Review of Westernbank Puerto Rico,
                                                Mayaguez, Puerto Rico (Report No. MLR-11-007)

As required by section 38(k) of the Federal Deposit Insurance Act (FDI) Act, and as
amended by the Dodd-Frank Wall Street Reform and Consumer Protection Act (Financial
Reform Act), the Office of Inspector General (OIG) conducted a material loss review
(MLR) of the failure of Westernbank Puerto Rico (Westernbank), Mayaguez, Puerto
Rico. The Office of the Commissioner of Financial Institutions of the Commonwealth of
Puerto Rico (OCFI) closed the institution on April 30, 2010, and named the FDIC as
receiver. On June 2, 2010, the FDIC notified the OIG that Westernbank’s total assets at
closing were $11.1 billion and the estimated loss to the Deposit Insurance Fund (DIF)
was $3.3 billion. The estimated loss exceeds the $200 million MLR threshold for losses
occurring between January 1, 2010 and December 31, 2011, as established by the
Financial Reform Act.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

The objectives of this material loss review were to (1) determine the causes of
Westernbank’s failure and the resulting material loss to the DIF and (2) evaluate the
FDIC’s supervision of Westernbank, including the FDIC’s implementation of the PCA
provisions of section 38 of the FDI Act. This report presents our analysis of
Westernbank’s failure and the FDIC’s efforts to ensure that the Board of Directors
(Board) and management operated the institution in a safe and sound manner. The report
does not contain formal recommendations. Instead, as major causes, trends, and common
characteristics of institution failures are identified in our material loss reviews, we will
communicate those to FDIC management for its consideration. As resources allow, we
may also conduct more comprehensive reviews of specific aspects of the FDIC’s
supervision program and make recommendations as warranted.1 Appendix 1 contains
details on our objectives, scope, and methodology. We also included several other
appendices to this report. Appendix 2 contains a glossary of key terms, including
material loss, the FDIC’s supervision program, and the Uniform Financial Institutions
Rating System, otherwise known as the CAMELS ratings. Appendix 3 contains a list of
acronyms. Appendix 4 presents examiner comments on reports of examination from
2005 to 2009. Appendix 5 contains the Corporation’s comments on this report.

Background
History and Description of Westernbank

Westernbank was founded as a mutual federal savings bank in 1958, and then was
converted to stock ownership in 1985 before becoming a state-chartered commercial
bank in 1994. The bank was a wholly-owned subsidiary of W Holding Company, Inc.
and headquartered in Mayaguez, Puerto Rico.2 Westernbank was the second largest bank
in Puerto Rico, operating through a network of 48 bank branches, including 25 branches
in the western and southwestern regions of Puerto Rico and 14 branches in the San Juan
metropolitan area. Figure 1 illustrates Westernbank’s branch network.

Figure 1: Westernbank’s Branch Network




Source: Westernbank’s 2009-2011 Business Plan.
E = Expresso of Westernbank, a division which specialized in small, unsecured consumer loans up to
$15,000 and real estate collateralized consumer loans up to $150,000.
W = Westernbank traditional retail banking outlets.

The bank’s initial lending strategy emphasized long-term fixed rate 1-4 residential
mortgage loans, but after becoming a commercial bank, Westernbank shifted its focus to
commercial lending. Specifically, Westernbank pursued asset-based lending (ABL),3 a

1
  A further discussion of OIG-related coverage of financial institution failures can be found in the
Objectives, Scope, and Methodology section of our report.
2
  Puerto Rico is a territory of the United States (U.S.) and the fourth largest Caribbean island.
3
  ABL is defined as a working capital line of credit to bridge cash flow between the business cycle, which
is the collection of receivables and normal operating expenses, and is typically tied and limited to a formula
of accounts receivable and inventory. This type of lending requires frequent monitoring of the collateral
base by the bank.


                                                      2
type of commercial and industrial (C&I) lending, and commercial real estate (CRE)
lending, including acquisition, development, and construction (ADC) loans. In the
2 years leading up to the Puerto Rico recession, the bank maintained about half of its
portfolio in CRE, mostly owner occupied; 10-12 percent in ADC; 9-13 percent in
residential real estate; 12-13 percent in C&I, which included ABL; and 12-13 percent in
other loan types. Loans represented about half of the bank’s total assets; the securities
portfolio represented about 40 percent. Westernbank, like other banks in Puerto Rico,
was also highly dependent on brokered deposits as a result of changes in tax laws
discussed in more detail below. Table 1 provides details on Westernbank’s financial
condition as of March 31, 2010 and for the 5 preceding calendar years.

Table 1: Financial Condition of Westernbank, 2005 to 2010
    Financial Measure
           ($000s)         Mar-10         Dec-09        Dec-08        Dec-07       Dec-06       Dec-05
    Total Assets          10,797,345     11,465,784    15,221,770    17,864,793   16,999,476   16,039,232
    Total Loans            8,122,144      8,272,477     8,686,588     9,216,411    8,565,557    7,766,730
    Total Investments      2,203,515      2,316,210     4,689,966     7,991,284    7,947,707    7,824,779
    Total Deposits         8,420,357      8,618,400    10,904,823    10,376,425    9,238,856    8,325,618
    Brokered Deposits      5,898,104      6,127,277     8,474,841     7,632,999    6,719,084    5,982,140
    Federal Funds          1,352,330      1,744,295     3,160,000     6,101,693    6,320,481    6,260,029
    Net Income (Loss)       (89,307)      (482,392)        (3,317)     (69,628)       59,042      122,238
Source: Uniform Bank Performance Reports (UBPR) for Westernbank.


Although the bank had an international division, substantially all of the bank’s business
activities involved customers located in Puerto Rico. As such, Westernbank, which was
1 of 10 banks operating in Puerto Rico before the bank was closed,4 encountered intense
competition from the other banks and financial institutions in Puerto Rico that are similar
to credit unions. In public filings, Westernbank stated that its profitability was dependent
on its ability to compete within its market and, to a significant extent, on economic
conditions in Puerto Rico.

Economic Conditions in Puerto Rico

Puerto Rico’s economy has been in the midst of a severe recession for a number of years.
In fact, while the U.S. recession is considered to have ended in June 2009,5 Puerto Rico’s
economy remains in a recession. Specifically, the Puerto Rico Planning Board reported
that the gross national product for the fiscal year ending June 2010 marked the island’s
fourth consecutive year of economic contraction. Reported factors contributing to the
economic contraction include the significant increase in oil prices, the budgetary
pressures on government finances, and continuous loss of manufacturing jobs. The
decline in employment on the island has been acute, and the percentage of jobs lost has

4
  Three of the 10 banks in Puerto Rico, Westernbank, Eurobank, and R-G Premier Bank of Puerto Rico
(R-G Premier), were closed on April 30, 2010.
5
  In September 2010, the Business Cycle Dating Committee of the National Bureau of Economic Research,
an independent group of economists, met and determined that a trough in business activity occurred in the
U.S. economy in June 2009. The trough marks the end of the declining phase and the start of a rising phase
of the business cycle.


                                                      3
been nearly double the U.S. rate. Between December 2004 and September 2010, Puerto
Rico lost 133,000 jobs, a 12.6-percent decline. Unemployment in Puerto Rico also has
climbed. The unemployment rate reached 17.2 percent in April 2010, the island’s highest
rate in 17 years. The unemployment rate eased to 16.0 percent in September 2010 but
remains well above the U.S. rate of 9.6 percent.6 Further, the sharp downturn in the U.S.
economy has exacerbated the island’s plight as exports of goods to the U.S. have
plummeted and tourism has declined.7

Although Puerto Rico’s economy is closely linked to the U.S. economy, job losses in
Puerto Rico pre-date job losses in the U.S. by 3 years and have their root in changes in
the island’s tax structure. More specifically, the Tax Reform Act of 1976 established the
possessions tax credit under Section 936, which was enacted to encourage economic
development in U.S. possessions such as Puerto Rico, U.S. Virgin Islands, and Guam.
Section 936 exempted U.S. corporations from paying federal income tax on profits
generated by a qualified Puerto Rican subsidiary of a U.S. corporation. The stated
purpose of this tax credit was to “assist the U.S. possessions in obtaining employment-
producing investments by U.S. corporations.” Indeed, while the tax law was in effect,
Puerto Rico’s manufacturing base experienced strong employment growth.

During the 1980s and early 1990s, several large U.S.-based pharmaceutical, medical
equipment, and metals manufacturing companies opened or expanded their operations in
Puerto Rico, which resulted in manufacturing surpassing agriculture as the primary
source of domestic income. However, legislation enacted in 1996 phased out the tax
incentives over a 10-year period and has been identified as a key factor in manufacturing-
related job losses on the island. Other reasons cited for the decline in Puerto Rico’s
manufacturing job base include an escalation in local labor and energy costs relative to
international competitors and the loss of patents on some pharmaceutical products that
are produced in Puerto Rico.

With regard to the housing sector, similar to the U.S., home prices and new home
construction on the island have declined steadily since 2006 and contributed to a sharp
decline in the number of construction jobs. The reduction in new construction activity in
Puerto Rico occurred about the same time as it did in the U.S., but the percentage
declines have been more severe. For example, between June 2004 and June 2009, the
island lost one-third of its construction-sector workforce. In contrast, construction-
related job losses started 2 years later across the U.S., down approximately 19 percent
from 2006.

Funding Structure of Puerto Rico Banks

Over the past decade, insured depository institutions in Puerto Rico have become
increasingly dependent upon non-core funding, primarily brokered deposits. Between
June 30, 1999 and June 30, 2009, brokered deposits increased from 13 percent to 40

6
  U.S. unemployment data as of October 2010 from the U.S. Department of Labor, Bureau of Labor
Statistics.
7
  For purposes of this discussion, we used U.S. to refer to the 50 states.


                                                  4
percent of total deposits. U.S. tax policy and legislation enacted by the Puerto Rico
government, and other sources of competition from “cooperativas” (state-chartered
institutions similar to credit unions) have been identified as contributing factors to the
funding structure of Puerto Rico banks.

In addition to promoting job growth, while Section 936 was in effect, corporations were
subject to a passive income tax on repatriated profits.8 The tax was passed by the Puerto
Rican government and led companies to maintain deposits at local banks, rather than
repatriating all profits. This practice resulted in a strong, low-cost funding source for
local banks. The repeal of Section 936 had a dramatic impact on local banks’ ability to
retain their deposits. To illustrate, according to information provided by FDIC officials,
it was estimated that banks lost more than 90 percent, or approximately $7.4 billion in
deposits, from the manufacturing section in 2003 with the repeal of Section 936.

Additionally, over the last 10 years, Puerto Rico Investment Companies (PRICs) have
attracted deposits away from banks. More specifically, the Investment Companies Act of
Puerto Rico led to the growth of PRICs, which are similar to mutual funds. Most of these
PRICs offer tax-advantageous products that compete directly with bank deposits.
“Cooperativas” are another source of competition for retail funding in Puerto Rico. As of
March 31, 2009, there were 123 “cooperativas” on the island. As a result of the limited
deposit market and the number of institutions on the island, competition for local deposits
is strong. In addition, local retail deposits generally tend to be priced higher than
brokered deposits and banks find that brokered deposits are a lower cost funding
mechanism for growth.


Causes of Failure and Material Loss

Westernbank failed because the Board and management’s lending strategy focused on
growth without ensuring that credit risk management practices kept pace with the
changing loan portfolio. Deficiencies in these practices, particularly as they related to the
CRE and ADC portfolios, played a key role in the bank’s failure. The weak economic
environment and strained real estate market accelerated portfolio deterioration.

The Board and management did not begin to address examiner criticism of weak
underwriting and credit administration practices in the ABL portfolio until the 2007
examination, after those practices contributed to an increase in adverse classifications.
Over that same timeframe, management pursued significant growth in the CRE and ADC
portfolios. As Puerto Rico’s economy sank into a severe recession, ABL, CRE, and ADC
loans that were originated and renewed based on the bank’s weak loan underwriting and
deficient credit administration practices caused the precipitous deterioration of asset
quality and increasingly high levels of adversely classified assets. These conditions
necessitated a large increase in provisions for losses, which stressed earnings and
eventually eroded the bank’s capital. The erosion of capital negatively impacted the

8
    Those profits that foreign corporations returned to their country from operations in Puerto Rico.


                                                        5
bank’s liquidity as the bank’s ability to renew its brokered deposits became restricted and
eventually prohibited. Ultimately, OCFI closed Westernbank because of the bank’s
inadequate liquidity brought on by the bank’s poor asset quality, poor earnings, and
inability to obtain additional capital.

Board and Management’s Growth Strategy

Beginning in 2001, the Board and management initiated a growth strategy that focused on
increasing its commercial business and real estate loans by pursuing ABL (a type of C&I
lending) and CRE lending, which included a substantial number of ADC loans. In
general, asset-based credits and construction loans present a higher risk to a financial
institution than consumer lending. In short, the Board and management’s strategy
increased Westernbank’s risk profile based on the nature of lending and the
concentrations that the bank eventually developed. Further, as discussed in the next
section of the report, during this period, while the Board and management focused on
growth, initiatives relating to risk management were not given the same level of attention.
Credit risk management practices did not keep pace with the changing loan portfolio or
the deteriorating Puerto Rico economy.

Westernbank’s loan portfolio totaled $2.2 billion and primarily consisted of 1-4 family
mortgages as of December 31, 2000. By December 31, 2007, Westernbank’s loan
portfolio had increased to $9.6 billion, of which 68 percent consisted of CRE and ADC
loans. Figure 1 illustrates growth in Westernbank’s ADC, CRE, and C&I lending.

Figure 2: Westernbank’s Growth in ADC, CRE, and C&I, 2001 to 2010
                                                           ADC            CRE         C&I
              $5,500
              $5,000
              $4,500
              $4,000
              $3,500
   Millions




              $3,000
              $2,500
              $2,000
              $1,500
              $1,000
               $500
                 $0
                            1


                                     2


                                              3



                                                       4


                                                                5


                                                                             6


                                                                                      7



                                                                                                 8


                                                                                                          9


                                                                                                                 10
                          -0


                                   -0


                                            -0



                                                     -0


                                                              -0


                                                                           -0


                                                                                    -0



                                                                                               -0


                                                                                                        -0


                                                                                                                  -
                       ec


                                ec


                                         ec



                                                  ec


                                                           ec


                                                                        ec


                                                                                 ec



                                                                                            ec


                                                                                                     ec


                                                                                                               ar
                                                                                                              M
                   D


                                D


                                         D



                                                  D


                                                           D


                                                                    D


                                                                                 D



                                                                                          D


                                                                                                     D




                                                               Period Ended


Source: UBPRs for Westernbank.




                                                                    6
As illustrated, Westernbank’s growth in C&I, including ABL, occurred between 2004
and 2006. The bank curbed its ABL after examiners and external auditors identified
significant problems with its Business Credit Division’s underwriting and monitoring
procedures. Internal controls and underwriting associated with the ABL were poor and
had led to significant losses from fraud and high levels of classified assets. According to
examination records, the bank’s Business Credit Division provided funds beyond the
reasonable repayment capacity of borrowers in an effort to support troubled loan
workouts. Frequently, additional funds were collateralized by non-income producing real
estate. This practice of over-lending weakened the bank’s position because repayment
became increasingly more dependent upon the sale of collateral rather than the cash flow
from the borrowers’ businesses.

Growth in CRE and ADC lending also occurred during the 2004-2006 period and
extended into 2007 when Westernbank decided to curtail CRE and ADC lending because
of deteriorating economic conditions. However, by then, the bank had developed sizable
CRE and ADC loan portfolios. Repayment of any CRE loan is dependent upon the
borrower’s ability to produce cash flow from the project through either rental income or
the sale of the property. Although collateral value provides certain protection, it does not
provide cash flow. Adequate administration and ultimate collectability of these loans
requires close monitoring and continuous evaluation of the value of the collateral.

In that regard, the construction lending department routinely provided excessive levels of
financing for projects that had failed to perform as originally intended. In addition, the
bank’s practice, which we understand was consistent with competitors in Puerto Rico,
was to provide construction financing without firm pre-sale contracts because developers
are not allowed to enter into long-term pre-sales contracts with non-refundable deposits.
Thus, a bank’s only assurance of commitment to a project is deposits, which are fully
refundable. For example, these deposits (referred to as options in Puerto Rico) are
generally less than $10,000 with some as low as $2,500 and are refundable upon request
for a $50 administrative fee. Because purchase options are entirely in the favor of the
buyer, examiners considered Westernbank’s residential development projects to be
speculative construction loans (i.e., loans that are not accompanied by meaningful pre-
sale, pre-lease, or take-out commitments and, therefore, riskier). In addition, the process
for obtaining construction permits in Puerto Rico can take between 3 to 5 years, which is
longer than in other U.S. markets. This protracted process was another market factor that
increased the riskiness of these loans. Lastly, as the economy deteriorated, the
construction lending department routinely provided excessive levels of additional
financing for projects that had failed to perform as originally intended.

Figure 3 illustrates the percentage of Westernbank’s CRE and ADC loans to total capital.
Notably, except for ADC levels in 2004, Westernbank’s ADC and CRE concentrations
exceeded its peer group and other banks in Puerto Rico. For the year-ended
December 31, 2008, CRE loans to owner-occupied borrowers amounted to 79 percent of
total CRE. As discussed, these loans are sensitive to economic conditions and the cash
flow of the borrower’s business.




                                             7
Regulatory guidance
emphasizes that rapid growth
in CRE, in particular ADC,
can present challenges for
bank management as it
monitors and controls risk it
may have not faced in the
past. This proved to be true
for Westernbank. For
example, in 2008, examiners
concluded that the bank’s
deteriorated condition and
increased risk profile
stemmed primarily from
Westernbank’s decision to
rapidly expand CRE and
ADC portfolios without
establishing an adequate risk
management infrastructure to
ensure that the risks
associated with this
expansion were properly
mitigated.

In December 2006, Federal
banking regulatory agencies
issued guidance, entitled,
Concentrations in
Commercial Real Estate Lending, Sound Risk Management Practices (Joint Guidance)
that reinforces existing regulations and guidelines for real estate lending and safety and
soundness.9 The guidance was issued because the agencies had observed that CRE
concentrations had been rising and could create safety and soundness concerns in the
event of a significant downturn. Due to the risks associated with CRE and ADC lending,
regulators consider institutions with significant CRE and ADC concentrations to be of
greater supervisory concern. The Joint Guidance defines institutions with significant
CRE concentrations as those reporting loans for construction, land and development, and
other land (i.e., ADC) representing 100 percent or more of total capital; or institutions
reporting total CRE loans representing 300 percent or more of total capital, where the
outstanding balance of CRE has increased by 50 percent or more during the prior 36
months.

The Joint Guidance further states that rising CRE concentrations can expose institutions
to unanticipated earnings and capital volatility in the event of adverse changes in the
general CRE market. Earlier supervisory guidance emphasized that ADC lending is a

9
 The guidance was issued jointly by the Office of the Comptroller of the Currency, the Board of Governors
of the Federal Reserve System, and the FDIC (collectively referred to as the agencies in the guidance).


                                                   8
highly specialized field, with inherent risks that must be managed and controlled to
ensure that this activity remains profitable.10 Supervisory guidance also states that an
institution’s Board is responsible for establishing appropriate risk limits, monitoring
exposure, and evaluating the effectiveness of the institution’s efforts to manage and
control risk.

Although examiners and external auditors first uncovered concerns with the bank’s ABL
portfolio, ultimately, the CRE and ADC loan portfolios resulted in the largest overall
losses to the bank as these types of loans are more vulnerable to declining economic
conditions. As of June 30, 2007, the Adversely Classified Items Coverage ratio had
increased significantly, from 17.20 percent reported at the prior examination to 40.29
percent. This ratio is a measure of the asset risk and ability of capital to protect against
that risk. A lower ratio is desirable because a higher ratio indicates exposure to poor-
quality assets and less ability for the bank’s capital to absorb any losses associated with
those assets. At the 2007 examination, ABL represented 82 percent of total classified
loans and totaled $300 million as compared to only $38 million in the CRE portfolio and
none in the ADC portfolio. However, by the 2008 examination, adversely classified
loans consisted of CRE loans totaling $604 million, ADC loans totaling $575 million,
and ABL totaling $430 million. As shown in Figure 4, for the period ending
December 31, 2005 to March 31, 2010, most of Westernbank’s loan charge-offs involved
ADC and CRE loans. Losses resulting from the ABL portfolio made up the vast majority
of C&I loan charge-offs.

Figure 4: Westernbank’s Loan and Lease Charge-offs, 2005 to 2010




Source: Consolidated Reports of Condition and Income (Call Reports) for Westernbank.

Notably, in the face of a challenging economic environment in 2007 and increasing
supervisory concerns, during the fourth quarter, the Board and management largely
suspended lending activities, restructured senior management, enhanced risk management

10
  Financial Institution Letter (FIL)-110-98, entitled, Internal and Regulatory Guidelines for Managing
Risks Associated with Acquisition, Development, and Construction Lending, dated October 8, 1998.


                                                    9
components, and developed a new strategic plan. However, economic conditions
continued to worsen, and Westernbank’s plans and efforts to address problem loans,
diversify its portfolio, and raise capital did not achieve satisfactory results.

Risk Management Policies and Practices

An institution’s Board is responsible for establishing appropriate risk limits, monitoring
exposure, and evaluating the effectiveness of the institution’s efforts to manage and
control risk. The Joint Guidance reiterates that concentrations in CRE lending, coupled
with weak loan underwriting and depressed CRE markets, contributed to significant
credit losses in the past. According to the Joint Guidance:

   strong risk management practices are an important element of a sound CRE lending
    program, particularly when an institution has a concentration in CRE loans;

   financial institutions with CRE concentrations should ensure that risk management
    practices appropriate to the size of the portfolio, as well as the level and nature of
    concentrations, and the associated risk to the institution are implemented; and

   financial institutions should establish a risk management framework that effectively
    identifies, monitors, and controls CRE concentration risk.

In addition, FIL-22-2008, Managing Commercial Real Estate Concentrations in a
Challenging Environment, issued March 17, 2008, provides key risk management
processes for institutions with CRE concentrations, including maintaining prudent, time-
tested lending policies with a strong credit review and risk rating system to identify
deteriorating credit trends early and maintaining updated financial and analytical
information for borrowers. For example, institutions should emphasize global financial
analysis of obligors, which involves analyzing borrowers’ complete financial resources
and obligations. The guidance further states that inappropriately adding extra interest
reserves on loans where the underlying real estate project is not performing as expected
can erode collateral protection and mask loans that would otherwise be reported as
delinquent.

A significant cause of the decline in asset quality experienced by Westernbank was
management’s poor risk management practices, including weak loan underwriting and
inadequate credit administration, especially during Puerto Rico’s severe and prolonged
economic recession. The economic decline in Puerto Rico resulted in a significantly
depressed real estate market and rapid deterioration in the bank’s CRE and ADC
portfolios. The fundamental weaknesses in the bank’s risk management practices
significantly impacted the ability of the bank to identify, measure, monitor, and control
the inherent risk in its loan portfolio during the economic downturn.

Loan Underwriting

Weak and liberal loan underwriting standards exacerbated the risks undertaken by
management and coupled with the declining economy, were a primary cause of


                                             10
Westernbank’s loan losses. Credit administration issues in the ABL portfolio, which was
the largest component of adversely classified loans in the 2007 report, were criticized in
the 2005 and 2006 reports, and loan underwriting related to ABL was criticized in the
2006 report. More specifically, in 2005, examiners criticized management’s internal loan
review process and stressed the imperative for improvement given significant asset
growth. Examiners also criticized the disarray and incompleteness of credit files,
including the lack of current financial statements. In 2006, examiners made the same
criticisms of internal loan review and made note of the external audit criticisms of ABL
oversight as well as the concentration of ABL credits in adversely classified and special
mention loans.

The 2007 examination noted that the Board’s failure to actively supervise management of
the ABL portfolio had led to overall asset quality deterioration. The ABL policy and
procedures and Board oversight were deemed to need improvement. Criticisms included
providing an interest reserve for a large, troubled ABL credit rather than putting it on
non-accrual, advancing additional monies to cover past due payments on another large
troubled ABL loan, permitting borrowers to deviate from loan terms, and advancing
monies outside the asset-based formula for acquisitions of real estate and capitalization of
interest. The examination also noted that management had failed to strengthen the bank’s
internal loan review function, despite repeat recommendations over three examinations
and criticisms from its external auditors. In March 2007, management finally employed
an experienced loan review officer and organized a fully staffed department. The
establishment of a strong internal review function led to the identification of a significant
loan fraud in the ABL department just prior to the examination.

During a Targeted Asset Quality Review (TARQ) that was done in August 2008,
examiners also identified significant underwriting deficiencies in the bank’s deteriorating
ABL, ADC and CRE portfolios, as follows:

ABL Portfolio Weaknesses

   Loans with Questionable Liquidation Value. Loans were routinely granted based
    on perceived collateral values, not the debt service capacity of the borrower. These
    types of loans present additional risk to the bank because the liquidation values
    become more “suspect” in a declining economic environment.

   ABL Over-Lending. As discussed earlier in the report, Westernbank repeatedly
    provided funds beyond the reasonable repayment capacity of borrowers. As a result,
    loan repayment was more dependent upon the sale of collateral rather than business
    cash flow. In most cases, the collateral included a significant amount of real estate,
    not accounts receivable and inventory as most ABL is designed. Compounding the
    risk, Westernbank rarely obtained new appraisals to address the changing market
    place, or required the borrower to fund a substantial portion of the shortfall.




                                             11
ADC Loan Portfolio Weaknesses

    Inadequate Borrower Equity. Westernbank’s Loan Policy required developer
     equity of at least 20 percent of the value of condominium projects that were being
     financed. However, in 2008, examiners reported that this form of equity generally
     resulted in the bank taking a much higher level of financial risk than the policy
     suggests. Examiners reported that the bank rarely obtained significant up-front cash
     equity. Cash equity provided through the purchase of land for development appears
     to be the most common, but these amounts were generally nominal relative to the
     overall project value. Most equity was in the form of hard construction cost
     retention,11 which is generally absorbed by construction contractors or builders, and
     sales commissions. Ultimately, it appears that developers had minimal equity in these
     projects, and the lack of equity build-up that occurred throughout the construction and
     sales phases suggested that the bank had nominal collateral protection if the project
     was not completed and sold at an appropriate amount.

    Excessive Volume of Loans with High Loan-to-Value (LTV) Ratios. The lack of
     borrower equity resulted in high LTV ratios. FDIC Rules and Regulations Part 365,
     Real Estate Lending Standards, Appendix A, Interagency Guidelines for Real Estate
     Lending Policies, states that within the aggregate amount, total loans exceeding the
     LTV limits for commercial, agricultural, multifamily, or other non-1-4 family
     residential properties should not exceed 30 percent of the institution’s total capital. In
     contravention of that policy, Westernbank’s total LTV exceptions were 46 percent of
     total capital. In addition, Westernbank frequently originated loans with 100 percent
     and, often times, greater than 100 percent, financing on ADC loans that also greatly
     increased the bank’s risk exposure.

CRE Weaknesses

    Other CRE Underwriting Weaknesses. The 2008 TAQR reported that
     Westernbank’s CRE portfolio also included evidence of poor underwriting practices
     that were in part attributable to nonexistent policy guidelines. Structural weaknesses
     described included:

        Non-existent, weak, or waived covenants;

        Inadequate debt service coverage;

        Inadequate financial analysis, insufficient collateral support, and/or insufficient
         documentation to support collateral valuations/dependency;

        Liberal repayment program and inadequate guarantor support; and

        Repayment highly dependent upon asset values.

11
  A percentage of the construction costs incurred by the contractor but not paid by the developer until the
project is complete.


                                                     12
Credit Administration

In addition to weak underwriting practices in all loan portfolios, examiners identified
numerous deficiencies in management’s administration of the ADC portfolio as it became
troubled. The following summarizes some of the problems cited in the August 2008
TAQR that ultimately contributed to deterioration in asset quality:

ADC Loan Portfolio Weaknesses

   Reliance on Faulty Appraisals. Examiners reported that the bank relied on stale or
    incomplete appraisals when renewing loans. In many instances, management granted
    additional funds without obtaining new appraisals. Therefore, the decline in the real
    estate market was not reflected in the appraisals used to support the loans. As a
    result, additional funds were granted without any consideration of collateral coverage.
    Additionally, management had an inadequate appraisal review system. As such,
    significant errors in appraisals were not identified by management, which routinely
    contributed to over-lending. In a depressed economy, this practice was particularly
    risky, as liquidation values became more suspect. In connection with the bank’s
    appraisal practices, examiners cited Westernbank as being in apparent contravention
    of Interagency Appraisal and Evaluation Guidelines and in apparent violation of
    FDIC’s appraisal rules and regulations.

   Nonaccrual Loan Administration. The bank did not adopt procedures for the
    placement of troubled ADC loans in nonaccrual status in accordance with Call Report
    instructions. As of April 30, 2008, none of the bank’s ADC loans were on
    nonaccrual, despite the large volume of adversely classified ADC loans identified
    during the 2008 TAQR. Examiners recommended that the bank place all of its ADC
    loans that were adversely classified during that assessment on nonaccrual status,
    given the uncertainty surrounding the collectability of principal and interest
    associated with these loans. The 2009 TAQR results indicated that interest income
    was overstated to some degree and possibly significantly overstated in some cases
    because of management’s treatment of interest received on nonaccrual loans. In the
    examiners’ view, this practice likely meant that the deterioration in asset quality and
    earnings were both understated.

   Interest Reserves. The bank’s Loan Policy did not address the applicability or
    permissibility of interest reserves and inappropriate usage resulted. Many loans
    originated with an initial interest reserve were subsequently renewed or extended with
    additional interest reserves, despite numerous existing credit weaknesses.
    Additionally, Westernbank frequently used interest reserves on land loans, where
    development was not imminent. These practices affected the banks recognition of
    problem credits by keeping underperforming or delinquent loans current. The liberal
    usage of loan interest reserves, coupled with a slowing real estate market, greatly
    increased portfolio risk.




                                            13
General Lending Program Weaknesses

Lastly, examiners identified and criticized the following general loan administration
problems at multiple examinations:

   Legal Lending Limits. Westernbank was cited in the 2007 and 2008 examinations
    for violations of the legal lending limit outlined in the Banking Law of Puerto Rico.
    Specifically, the bank was in apparent violation of Section 17 of Act No. 55, which
    states that banks may not grant secured loans or transactions that may represent an
    extension of credit, to the same borrower for an amount greater than 33.33 percent of
    its paid-in capital, reserve fund, and other components to be determined by the
    Commissioner from time to time. The bank also violated other lending limits found
    in Chapter VIII of Regulation 5793 implementing the Act. Specifically, a group of
    loans were approved for one relationship that exceeded the legal lending limit.

   Loan Review Program. Each examination of Westernbank from 2005 to 2008
    reported weaknesses in the bank’s loan review program, including the lack of
    analyses of current financial statements, identification of all credit weaknesses and
    policy exceptions, and reviews of borrowers' compliance with outstanding loan
    covenants. The failure to grade loans appropriately resulted in management not
    properly identifying risks within the loan portfolio and failing to recognize loan
    impairment as required by accounting standards. For example, during the 2008 exam,
    Westernbank’s internal classification report identified just 37 percent of the loans that
    examiners deemed as adversely classified.




                                             14
      Examples of Poor Underwriting and Credit Administration Practices
                             in ABL Portfolio

     As a result, of inadequate underwriting procedures, poor credit administration, and deficient
     oversight by management, Westernbank originated loan relationships causing individual loan
     losses exceeding $100 million within its asset-based loan portfolio.

     One of these concentrations was the asset-based loans to a pharmaceutical company with
     international operations. In March 2005, Westernbank originated various loans and lines of
     credit to three of this firm’s subsidiaries totaling $130.4 million in principal value. Under the
     terms of the loans, Westernbank agreed to provide this firm with credit lines upon which they
     could draw down based on a percentage of their accounts receivable. Based upon invoices
     and reports submitted to Westernbank, the bank was assigned approximately $122.5 million
     in accounts receivable and inventories. The firm agreed to establish “lock box” accounts
     where customers would remit payments and the deposits would become Westernbank
     property. By June 28, 2007, the firm had defaulted on various loan agreements and owed
     Westernbank over $142 million in principal and interest. Westernbank hired an accounting
     firm to conduct a forensic investigation, which uncovered that the firm had submitted a series
     of pledged asset reports with rampant irregularities and discrepancies to Westernbank. In
     addition, the firm was involved in collusion with many of its drug buyers to make payments
     directly to the firm instead of established lock box accounts. The total cost to Westernbank
     for the firm credit, including legal and accounting fees was approximately $200 million.
     Although the firm misled Westernbank, examiners concluded that oversight was lax.

     Another of these large individual concentrations was to a company that specializes in the
     growing processing, and distribution of roasted coffee products. In this case, the firm
     originated various working capital lines of credit with Westernbank to finance accounts
     receivable and inventory, and various term loans to finance the acquisition of real estate
     properties for future developments. Further, the underlying collateral of this credit was
     considered marginal because appraised real estate values were dependent on extraordinary
     events and/or hypothetical assumptions. Examiners identified this credit as poorly structured;
     with overall credit administration weakness and insufficient oversight and the firm accounted
     for $108 million in adverse classifications in the 2007 examination.

     Source: Examination reports for Westernbank.



Allowance for Loan and Lease Losses

According to guidance related to the Interagency Policy Statement on the Allowance for
Loan and Lease Losses (ALLL Policy Statement), the ALLL represents one of the most
significant estimates in an institution’s financial statements and regulatory reports. The
ALLL Policy Statement reiterates key concepts and requirements related to generally
accepted accounting principles12 and existing supervisory guidance. Specifically, the
ALLL Policy Statement describes (1) the nature and purpose of the ALLL; (2) the
12
  In 2009, the accounting standards were codified. Former Statement of Financial Accounting Standards
(FAS) No. 5, Accounting for Contingencies, is now covered in Accounting Standard Codification (ASC)
Subtopic 450-20. Former FAS No. 114, Accounting by Creditors for Impairment of a Loan, is now covered
in ASC 310-10-35. These standards provide accounting guidance for loss contingencies on a pool basis
and impairment of loans on an individual basis, respectively.


                                                    15
responsibilities of boards of directors, management, and examiners; (3) factors to be
considered in the estimation of the ALLL; and (4) the objectives and elements of an
effective loan review system, including a sound credit grading system. According to the
guidance, an institution’s process for determining the ALLL should be based on a
comprehensive, well-documented, and consistently applied analysis of its loan portfolio
that considers all significant factors that affect collectability. That analysis should
include an assessment of changes in economic conditions and collateral values and their
direct impact on credit quality. If declining credit quality trends relevant to the types of
loans in an institution’s portfolio are evident, the ALLL level as a percentage of the
portfolio should generally increase, barring unusual charge-off activity.

In 2007, examiners concluded that Westernbank was in contravention of the ALLL
Policy Statement as management had not developed written policies and procedures for
the maintenance of the ALLL. At the 2008 examination, examiners concluded that the
bank’s ALLL methodology was no longer appropriate given the changes in the bank’s
risk profile and asset deterioration. Examiners recommended additional segmentation of
the loan portfolio into more discrete loan product descriptions, collateral types, and loan
grades and additional documentation to support adjustments made to historical loss rates.
As of June 30, 2008, the ALLL totaled $220.9 million, or 2.36 percent of the total loan
portfolio. Based on examiner findings and downgrades, the bank’s ALLL was found to
be deficient in the range of $87 million to $147 million. In addition, the bank was in
contravention of the ALLL Policy Statement as a result of management’s inability to
identify problem loans due to an inadequate loan monitoring system. The deficiencies in
Westernbank’s loan review system resulted in problem loans not being properly
classified in a timely manner.

Reliance on Wholesale Funding Sources

As discussed earlier in the report, banks in Puerto Rico are highly dependent on brokered
deposits due to the challenges that banks on the island faced attracting core deposits.
Notably, the repeal of Section 936, as well as competition from “cooperativas” and
PRICs, contributed to the increased dependence on brokered deposits. Westernbank
became increasing reliant on wholesale funding sources, particularly brokered deposits
and Federal Home Loan Bank (FHLB) borrowings, to grow its loan portfolio.
Historically, the bank was able to effectively maintain sufficient liquidity levels and
manage the potential volatility of its funding strategy. However, by 2008, the bank’s
liquidity position was negatively impacted by the bank’s increasingly troubled financial
condition.

Between December 2004 and December 2008, Westernbank more than doubled its
brokered deposits from $4.2 billion to $8.5 billion. Additionally, from December 2005
through March 2010, Westernbank’s brokered deposits comprised no less than 70 percent
of the bank’s total deposits. This degree of dependence made Westernbank more reliant
on wholesale funding than both its bank and state peers. Specifically, as shown in Table
2, Westernbank’s net non-core funding dependency ratio consistently and significantly
exceeded peer group averages for such funding sources. Generally, the lower the ratio,
the less risk exposure there is for the bank, whereas higher rates reflect reliance on


                                             16
funding sources that may not be available in times of financial stress or adverse changes
in market conditions.

Table 2: Westernbank’s Net Non-Core Funding Dependency Ratio
                         Mar-10    Dec-09     Dec-08    Dec-07     Dec-06    Dec-05
 Westernbank             79.12      82.79     89.97      81.43      81.41     81.17
 Bank Peer Group         27.26      28.94     37.67      33.98      33.08     32.33
 State Peer Group*       63.17      59.25     68.56      65.52      69.34     69.81
Source: UBPRs for Westernbank.
*Puerto Rico.

The FDIC’s Rules and Regulations Part 337, Unsafe and Unsound Banking Practices,
states that any Well Capitalized insured depository institution may solicit and accept,
renew, or roll over any brokered deposits without restriction. Under FDIC’s Rules and
Regulations, restrictions on brokered deposits are imposed when an institution falls below
Well Capitalized. Under Part 337, Undercapitalized and Adequately Capitalized
institutions are prohibited from obtaining or rolling over brokered deposits; however,
Adequately Capitalized institutions may request a waiver of the prohibition. As
discussed later in this report, in May 2009, Westernbank became subject to a supervisory
order with a capital provision that effectively changed the bank’s capital level from Well
Capitalized to Adequately Capitalized and prohibited the bank from accepting, renewing,
or rolling over brokered deposits unless it had received prior waiver from the FDIC.

In addition to increasing regulatory restrictions, the bank’s deteriorating financial
condition also caused four brokers that accounted for 43 percent of outstanding brokered
deposits to stop selling the bank’s certificates of deposit. Although additional brokers
were added to replace those brokers and the bank was taking steps to de-leverage the bank
and expand other funding sources, examiners remained concerned with Westernbank’s
ability to obtain sufficient funds to meet its growing liquidity needs.


The FDIC’s Supervision of Westernbank

Historically, Westernbank was well-rated and the bank’s financial condition was
considered to be sound. Examiners did, however, criticize management’s administration
of the bank’s ABL portfolio in the 2005 examination and repeated those criticisms and
noted additional underwriting issues in the 2006 examination. Management’s failure to
address examiner recommendations related to the loan review function from the 2005
examination led to criticisms from the bank’s external auditors and resulted in examiners
downgrading the Asset Quality and the composite ratings from a “1” to “2” in 2006. At
the 2007 examination, examiners identified significant asset quality problems in the ABL
portfolio and attributed the overall deterioration in asset quality to the Board’s failure to
actively oversee management of this type of lending. Examiners again downgraded the
bank’s composite and component ratings during that examination, signaling some degree
of supervisory concern, and Westernbank agreed to an informal supervisory action aimed
at correcting identified deficiencies. Although Westernbank’s Board and management



                                             17
ultimately took steps to address ABL portfolio problems, deterioration emerged in the
CRE and ADC portfolios as the economy in Puerto Rico worsened.

Our review focused on the period 2005 to 2010. Notably, in 2006, the FDIC’s New York
Regional Office (NYRO) recognized the need to closely monitor economic and banking
trends in Puerto Rico, and those monitoring efforts led to the development of a
comprehensive supervisory strategy for Puerto Rico in 2008 and 2009. As part of that
broader strategy, the FDIC’s supervisory attention to Westernbank was extensive and
comprised of the following elements: (1) annual onsite safety and soundness
examinations performed jointly with OCFI, (2) offsite monitoring activities, and
(3) TAQRs and a horizontal review of loan classifications.13 The FDIC’s supervisory
strategy was also instrumental in implementing a well-coordinated resolution of the three
Puerto Rico banks that were closed in April 2010.

A general lesson learned with respect to weaknesses in risk management practices,
particularly as they relate to the lending function in general and CRE and ADC
concentrations, is that early supervisory intervention is prudent, even when an institution
is considered Well Capitalized and has few classified assets. In that regard, the FDIC
began downgrading component and composite ratings at the 2006 examination and
further downgraded ratings at subsequent examinations. In addition, the FDIC executed
an informal enforcement action following the 2007 examination and a formal
enforcement action following the 2008 examination. In hindsight, initiating an informal
enforcement action in response to the 2006 examination and imposing a stronger
supervisory action in response to the 2007 examination findings may have been prudent,
considering that:

    repeated weaknesses were identified in the underwriting and administration of the
     ABL portfolio at a time when the bank was increasing its emphasis on CRE and
     ADC;

    Westernbank’s increasing CRE and ADC concentrations made it vulnerable to
     declining economic conditions;

    the FDIC identified Puerto Rico’s economy as an emerging risk area in March 2006;

    a strong internal loan review and grading system were needed to ensure timely
     identification of developing problems and an accurate ALLL; and

    unique market factors existed in Puerto Rico, including the degree of competiveness
     among institutions, that made ADC lending even riskier than in other U.S. markets.

In addition, recognizing that banks in Puerto Rico faced unique challenges in attracting
core deposits, greater supervisory attention and earlier criticism of the bank’s overall

13
  Nine of the institutions in Puerto Rico were designated as Minority Depository Institutions (MDIs).
Recognizing the concentration of MDIs in Puerto Rico and the large asset size of these institutions, the
NYRO also held annual MDI conferences in Puerto Rico exclusively for these banks.


                                                     18
liquidity risk profile might also have been prudent. The 2005, 2006, and 2007
examination reports discussed and included recommendations related to liquidity
contingency planning and liquidity stress testing. However, earlier action to address the
bank’s heavy reliance on brokered deposits could have reduced the bank’s high liquidity
risk profile and limited, to some extent, the amount of its ADC lending. The FDIC has
taken a number of actions to address banks that have risk profiles similar to Westernbank,
including instituting a training initiative on forward-looking supervision and issuing
additional supervisory guidance on CRE and ADC concentrations and funds
management.

Supervisory History

Examination History

From 2005 to 2010, the FDIC and OCFI conducted four joint examinations, three TAQRs
of Westernbank, and quarterly Large Insured Depository Institution Program (LIDI)
reviews of Westernbank. In October 2009, the FDIC also performed a visitation to assess
the bank’s liquidity position. Examiners conducted a horizontal review of loan
classifications for Westernbank, Eurobank, and R-G Premier in January 2010 to ensure
the classifications were being determined consistently. Further, the FDIC monitored the
bank’s financial condition using various offsite monitoring tools. Table 3 summarizes
the examination history of Westernbank from 2005 to 2010.

Table 3: Examination History of Westernbank, 2005 to 2010
                                                  Supervisory
Examination      Examination                        Ratings
 Start Date       as of Date        Agency          (UFIRS)                Supervisory Action
  7/18/2005        3/31/2005         Joint          112112/1       None
                                                                   Bank Board Resolution (BBR)
  6/19/2006         3/31/2006          Joint         222222/2
                                                                   effective October 2, 2006.*
                                                                   Memorandum of Understanding
  7/30/2007         6/30/2007          Joint         333423/3
                                                                   (MOU) effective February 27, 2008.
                                       Joint
  3/10/2008         2/28/2008                           N/A        MOU remained in effect.
                                     (TAQR)
                                                   Asset Quality   Results of an offsite review of
                                       Joint           was         9/30/2008 Call Report data resulted in
  6/02/2008         4/30/2008
                                     (TAQR)       downgraded to    downgrading the Westernbank’s
                                                         4         composite rating to a “4”.
                                                                   Cease and Desist Order (C&D)
  9/29/2008         6/30/2008          Joint         444443/4
                                                                   effective May 22, 2009.
                                                                   C&D remained in effect.
                                       Joint                       Interim downgrade processed on
  5/11/2009         3/31/2009                        554443/5
                                     (TAQR)                        9/30/2009 based on preliminary
                                                                   findings of TAQR.
11/16/2009**        9/30/2009         Joint         555555/5       C&D remained in effect.
Source: Examination reports and enforcement actions for Westernbank.
*BBR was related to the Bank Secrecy Act.
**The 11/16/2009 examination was not finalized before the bank failed on 4/30/2010.




                                                   19
Offsite Monitoring

In addition to onsite examinations, the FDIC performed quarterly LIDI reviews and
continuous offsite monitoring, including periodic contact with bank management and
analysis of Call Report data. As part of the FDIC’s LIDI program, case managers, along
with senior regional management, are generally responsible for ensuring that the level of
regulatory oversight accorded to an institution is commensurate with the level of risk it
poses to the DIF. Case managers regularly monitor potential risks by reviewing
examination reports, analyzing data from quarterly institution Call Reports, and analyzing
other financial and economic data from government and private sources to monitor the
financial condition of an institution. The offsite review program is designed to identify
emerging supervisory concerns and potential problems so that supervisory strategies can
be adjusted appropriately. The FDIC generates an offsite review list (ORL) each quarter
and performs offsite reviews for each bank that appears on the list. The findings of these
reviews are factored into examination schedules and other supervisory activities. The
system-generated offsite review list includes only institutions rated “1” and “2” that are
either:

   identified by Statistical CAMELS Offsite Rating (SCOR) as having a 35-percent or
    higher probability of downgrade to “3” or worse, or

   identified in the Growth Monitoring System (GMS) as having a growth percentile of
    98 or 99.

The FDIC also has a model that measures a bank’s exposure to concentrations, the Real
Estate Stress Test (REST). The REST model attempts to simulate what would happen to
banks today if they encountered a real estate crisis similar to that of New England in the
early 1990s. According to FDIC information about the REST model, a high REST score
does not necessarily mean that the institution is a supervisory concern but indicates a high
exposure to a potential economic downturn because of ADC concentrations.

Westernbank was included on the ORL four times based on REST, GMS, and/or SCOR
flags. The initial offsite review completed in April 2007 did not reveal any notable
changes in the bank’s activities and stated that Westernbank’s reliance on non-core
funding was characteristic of Puerto Rico banks. As such, the offsite review did not
prompt any additional follow-up prior to the onsite examination scheduled for July 2007.
Subsequent offsite reviews indicated deterioration in most of the bank’s component areas,
and follow-up activities were either tied to ongoing examinations or planned visitations.
However, the findings of an offsite review of September 30, 2008 Call Report data and
preliminary results of the June 2008 TAQR resulted in an interim rating change.
Specifically, the FDIC downgraded Westernbank’s composite rating to a “4” on
November 24, 2008.




                                            20
NYRO Supervisory Strategy for Puerto Rico

In March 2006, the NYRO Regional Risk Committee (RRC)14 decided to include Puerto
Rico as a unique risk area in its quarterly assessment due to emerging concerns associated
with economic and banking conditions in Puerto Rico. According to FDIC guidance, the
mission of an RRC is to:

    review and evaluate regional economic and banking trends;

    develop follow-up strategies;

    allocate resources, where necessary, to implement follow-up strategies and actions;
     and

    prepare a regional matrix that summarizes the level of concern (i.e., magnitude of
     concern) and level of exposure (likely impact of adverse risk areas on the region’s
     banking industry).

Beginning with the March 2006 report, the NYRO RRC quarterly summary reports
reflect extensive discussions about economic conditions in Puerto Rico and planned
supervisory strategies. In June 2007, the NYRO decided to develop a separate
comprehensive supervisory strategy for Puerto Rico for the 2008 examination cycle
because economic data revealed 4 consecutive quarters of job losses.15 Further, the
region’s assessment of June 30, 2007 Call Report data showed signs of deterioration in
the financial performance of banks in Puerto Rico. Specifically, earnings performance
had significantly declined during 2007 due to increased provision expenses associated
with deterioration in asset quality. At the time, the NYRO was particularly concerned
about the potential risks associated with consumer loans.

The region was concerned that overall growth in consumer lending in Puerto Rico,
coupled with the extent of job losses, would lead to additional asset quality problems in
the future. Puerto Rico banks historically reported a past-due ratio for consumer loans
that greatly exceeded the national median ratio. Over the period of 2004-2009, the
national median past-due ratio for consumer loans ranged from a low of 1.65 percent as
of year-end 2006 to a high of 1.97 percent at year-end 2009. During the same time
periods, the Puerto Rico banks reported a low of 3.73 percent in 2005 to a high of 6.95
percent in 2007. The increase in the Puerto Rico past-due levels was of significant
concern in 2006 as the Puerto Rico banks in aggregate had consumer loan exposure close
to 100 percent of their capital. According to the September 2007 RRC summary report,
the region was also beginning to highlight trends in CRE and ADC concentrations in


14
  The FDIC’s policy requires that each region have an RRC.
15
  Another area of concern related to accounting issues that were identified in 2005 and early 2006
requiring a number of Puerto Rico banks to restate financial statements. Although Westernbank’s holding
company was involved in the restatement requirement, in its case, the necessary accounting
reclassifications were minimal.


                                                  21
order to identify institutions with concentrations above supervisory thresholds defined in
the December 2006 Joint Guidance.

The 2008 NYRO Supervisory Strategy for Puerto Rico captured (1) an overall view of
identified risks for each of the banks; (2) a supervisory snapshot of each bank, including a
summary describing each bank’s primary business lines; and (3) resource needs. The
supervisory strategy was comprised of a combination of point in time examinations,
visitations, targeted reviews, horizontal reviews, and quarterly offsite analysis, with an
emphasis on evaluating asset quality. The strategy was implemented on January 1, 2008
and updated for 2009.

Another aspect of the region’s strategy involved regular communication with officials
from Puerto Rico’s Governor’s offices, including the Government Development Bank
(GDB) (the GDB operates in a role similar to that of a central bank) to identify options
for reducing the volume of non-performing assets on the island. Efforts were also made
to jointly monitor economic conditions with GDB and OCFI to ensure effective
communication in the event of one or more bank failures.

Supervisory Response to Board and Management’s Lending Strategy and Risk
Management Practices

Examiners appropriately identified poor risk management practices in the lending area,
made relevant recommendations, and downgraded the bank’s asset quality and composite
rating at four consecutive examinations, with the second downgrade being accompanied
by informal enforcement action through an MOU. These actions were consistent with the
principles of the FDIC’s forward-looking supervision program. As significant asset
quality deterioration emerged, examiners further downgraded component and composite
ratings and undertook progressively stronger supervisory actions. Appendix 4 details
examiner comments related to these practices in examination reports.

2005 and 2006 Supervisory Activity

Overall, Westernbank was considered to be fundamentally sound in 2005 and 2006 but
the Asset Quality component and the bank’s composite ratings were downgraded in 2006
from a “1” to a “2”. The 2005 examination report stated that this institution continued to
be directed by a competent Board and senior management team as evidenced by the
overall financial condition of the bank. However, various risk management practices
were found in need of improvement. Both the 2005 and 2006 examinations reported that
the internal loan review process was in need of improvement and both examinations
made specific recommendations in these areas. In fact, the 2005 report stated that due to
the institution’s significant growth, it was imperative that management implement an
effective internal loan review program to ensure an accurate and objective assessment of
credit risk within the loan portfolio and an adequate ALLL.

According to the 2006 examination report, Westernbank’s classifications were based only
on delinquency status and collateral protection. Further, examiners discovered that large
loan relationships had not been reviewed for 2 years. In addition, loan relationships were


                                            22
not always reviewed at the same time and, in some instances, updates were performed
without the benefit of current financial information. Examiners also found that reporting
to the Board and monitoring of corrective action by senior management were both
lacking. According to FDIC officials, management’s failure to respond to examiner
recommendations regarding the internal review process at the 2005 examination
contributed to the downgrades at the 2006 examination.

2007 Supervisory Activity

By the July 2007 examination, the effects of the economic downturn in Puerto Rico
coupled with the bank’s weak risk management practices, began to adversely affect
Westernbank’s financial condition. Accordingly, examiners downgraded the bank’s
composite and all component ratings to “3”, signaling some degree of supervisory
concern. The examination report stated that the Board and management needed to more
appropriately identify, measure, monitor, and control risk in the institution and directly
attributed the deterioration in the ABL portfolio to the Board’s failure to actively
supervise management of this type of lending.

Examiners expanded the loan review and targeted Westernbank’s ABL portfolio, as weak
controls had led to a significant fraud loss in that portfolio earlier in the year. At the end
of the examination, classified ABL loans, carried at the bank’s Business Credit Division,
represented 82 percent of total classified loans. Examiners concluded that most of the
ABL loans ultimately classified had been poorly underwritten and were originated during
2004 to 2006, a period of prominent growth. The examination report stated that the
Board had not provided clear guidance for acceptable levels of risk exposure with respect
to its growth strategy or ensured that appropriate procedures and practices were
established. Examiners also expressed concern regarding the lack of effective controls
over loan administration and the bank’s overall lending structure and staffing. In
addition, examiners recommended that the Board consider additional outside directors to
provide expertise and offer support to the bank’s officers.

The 2007 examination was transmitted to the bank on January 29, 2008. An MOU was
executed on February 27, 2008 to address concerns identified in the examination,
requiring among other things, that the bank correct apparent violations, conduct a
management review, eliminate and develop a plan to reduce adversely classified assets,
improve its independent loan review process, and develop a capital plan to ensure it
remained Well Capitalized.

2008 Supervisory Activity

In March 2008, the FDIC conducted Westernbank’s first TAQR that focused on the
bank’s ADC loans. In this review, examiners identified substantive deterioration in the
ADC portfolio associated with the recession, including construction delays, construction
cost overruns, slow sales, and limited options to purchase. Examiners classified various
credits and also found that management had failed to classify any of the loans in this
portfolio despite evidence of credit quality weaknesses. A letter was sent to the Board in
April 2008 emphasizing the importance of maintaining proper credit risk identification


                                             23
and monitoring systems in light of the downturn in the economy and declines in the
construction sector due to significant speculation and overdevelopment.

In June 2008, the FDIC conducted a second TAQR to further evaluate Westernbank’s
asset quality that targeted loan underwriting and credit administration practices. The
review also assessed the bank’s progress in addressing the MOU. The TAQR results
indicated that Westernbank’s loan portfolios continued to deteriorate due to the recession
in Puerto Rico. Specifically, examiners found that construction projects no longer had
market feasibility and adequate collateral protection and were negatively affected by
construction delays and cost overruns. Further, the bank had not adopted procedures for
the placement of troubled ADC loans on nonaccrual status in accordance with Call
Report instructions. The bank had not placed any of the ADC loans on nonaccrual status
despite the large volume of adversely classified loans identified during the TAQR. Also,
management had failed to implement an effective loan review program despite repeated
recommendations to do so in the prior four examinations and a provision in the MOU
aimed at correcting this deficiency. The results of the TAQR also indicated that
management was in non-compliance with provisions of the MOU related to eliminating
apparent violations of law or regulations. As discussed earlier, the FDIC notified
Westernbank in November 2008 that it was being downgraded to a composite “4” based
on the results of this review and offsite analysis of September 30, 2008 Call Report data.

The FDIC and OCFI initiated a full-scope examination on September 29, 2008. The
examination report concluded that the Board and management’s performance were
unsatisfactory and assigned the bank a composite rating to “4”. Examiners further
concluded that management's decision to engage in rapid expansion of the bank’s
commercial portfolio, including ABL and ADC loan portfolios during 2002 through
2006, absent an adequate risk management infrastructure, was the catalyst for the current
poor condition of the institution. Further, examiners concluded that the Board’s
supervision of this growth was inadequate, resulting in a large concentration of bank
assets in CRE, including a sizeable portfolio of ADC loans.

Examiners found continued significant deterioration in both the ADC and CRE
portfolios, which now represented the largest dollar amounts of classified loans at
$575 million and $604 million, respectively, compared to the ABL portfolio, which had
remained relatively stable at $430 million. The deteriorated condition of the bank was
found to warrant a formal enforcement action.

2009 Supervisory Activity

The 2008 examination was transmitted to Westernbank on March 4, 2009, and the bank
stipulated to the C&D on April 17, 2009, which became effective on May 22, 2009.
Among other things, the C&D required the bank to take specific corrective actions related
to its lending practices, including: loan underwriting, appraisal compliance, and other
credit administration procedures, and included a capital provision.

A third TAQR commenced in May 2009 and continued to show severe deterioration in
the bank’s asset quality. Examiners concluded that the local recession as well as the poor


                                            24
economic conditions throughout the entire country had continued to negatively impact
the bank’s borrowers and led to further deterioration in the bank’s loan portfolio. The
bank’s over-lending practices and deficient loan administration practices had further
exacerbated the asset quality problems, and further deterioration in credits was occurring
due to declining collateral values. Examiners identified a variety of weaknesses and
recommended the bank’s Asset Quality rating be downgraded to critically deficient, or a
“5” rating. Results of the TAQR indicated that Westernbank was in non-compliance with
the C&D and that the bank’s overall financial condition was rapidly deteriorating.

FDIC and OCFI officials worked with Westernbank in an attempt to correct deficiencies
in the bank’s practices and take actions to work out loans to improve the bank’s financial
condition. However, the bank’s financial condition continued to deteriorate as declining
asset quality associated with the deepening recession in Puerto Rico caused loan losses
that negatively affected the bank’s earnings and capital levels. In response to these
conditions, on September 29, 2009, the FDIC notified Westernbank that the Asset
Quality, Capital, and composite ratings were being downgraded to “5”. The results of the
TAQR were rolled into the full-scope examination initiated in November 2009, but
Westernbank was closed prior to issuance of the report.

2010 Supervisory Activity

During 2010, examiners focused on completing the full-scope examination started in
November 2009. In January 2010, examiners for Westernbank and two other Puerto Rico
banks also conducted a horizontal review to ensure classifications of CRE loans were
consistent. In addition, during the first quarter, FDIC officials met with Westernbank
numerous times to discuss various issues, including brokered deposits and the bank’s
capital plan.

Supervisory Lessons Learned

At the time Westernbank was implementing its growth strategy in ABL, CRE, and ADC
loans, federal banking agency examiners were generally observing that institutions were
relaxing underwriting standards as a result of strong competition for business. Further,
specific risk management weaknesses were identified in Westernbank’s loan review and
grading system and ABL underwriting and administration practices. As discussed earlier
in this report, and acknowledged in the NYRO’s supervisory strategy, market factors in
Puerto Rico made ADC lending riskier and warranted additional supervisory attention. A
general lesson learned with respect to weaknesses in risk management practices,
particularly as they relate to the lending function in general and CRE and ADC
concentrations in particular, is that early supervisory intervention is prudent, even when
an institution is considered Well Capitalized and has few classified assets.

The FDIC began progressively downgrading Westernbank’s component and composite
ratings at the 2006 examination, initiated an informal enforcement action at the 2007
examination, and imposed a formal enforcement action to secure corrective action
following the 2008 examination. In hindsight, initiating an informal supervisory action in
response to the 2006 examination and imposing a stronger supervisory action in response


                                           25
to the 2007 examination findings may have been prudent. These steps may have led to
more prompt correction of deficient practices and limited growth before economic
conditions made it difficult for the bank to address problems.

The FDIC has taken a number of actions to increase supervisory attention to banks that
have risk profiles similar to Westernbank. Of note, in March 2010, the FDIC completed
a training initiative for its entire supervisory workforce that emphasizes the need to assess
a bank’s risk profile using forward-looking supervision. The FDIC has also issued
updated guidance to examiners regarding CRE loan examination procedures in view of
more challenging market conditions, particularly in ADC lending, and supervisory
expectations for FDIC-supervised institutions to update real estate appraisals and
evaluations.

Supervisory Response to Reliance on Wholesale Funding Sources

2005 to 2010 Supervisory Activity

In 2005, 2006, and 2007, examiners viewed Westernbank’s liquidity to be strong and/or
satisfactory, although examiners noted the potential volatility of the bank’s heavy
reliance on non-core funding. Accordingly, Liquidity was rated “1” in 2005 and 2006
and “2” in 2007. Westernbank’s high reliance on brokered deposits was considered to be
characteristic of Puerto Rico banks, and the bank had a liquidity contingency plan in
place. Examiners did, however, make recommendations in both the 2005 and 2006
examinations aimed at improving the bank’s liquidity contingency plan, liquidity
measurement tools, and liquidity risk limits consistent with supervisory guidance.
Similar recommendations were made at the 2007 examination and examiners
downgraded the Liquidity component rating from “1” to “2”. For example, the 2007
examination report noted that the bank depended significantly on the constant roll-over
and market availability of brokered deposits and recommended that Westernbank’s CFP
be updated regularly to:

   Define responsibilities and decision-making authority during a problem-funding
    situation.

   Include an assessment of the possible liquidity events that the institution may
    encounter.

   Assess the potential for erosion by funding source under various scenarios.

   Identify the sequence in which sources of funds will be used for contingent needs.

   Identify the conditions related to the use of back-up facilities and the circumstances
    where the institution may use them, and test the ability to borrow from established
    back-up facilities.

   Establish the timeframes for reporting in a problem liquidity situation.



                                             26
   Establish an asset tracking system to identify how much a cash sale of assets will
    generate.

By 2008, the financial condition of the bank had deteriorated significantly, and the bank’s
reliance on brokered deposits became a concern, and the Liquidity component was
downgraded to a “4” rating. A “4” rating indicates deficient liquidity levels or
inadequate funds management practices. Further, institutions assigned this rating may
not have or be able to obtain a sufficient volume of funds on reasonable terms to meet
liquidity needs. Indeed, several key brokers were no longer willing to sell Westernbank’s
certificates of deposit due to impending enforcement actions. The examination report
stated that the bank's continued reliance on brokered funds, without appropriate risk
limits, had resulted in the bank’s immediate need for alternate funding sources to replace
those funds that were not rolled over by brokers. The bank commenced daily liquidity
reporting to the FDIC on September 29, 2008.

On September 30, 2008, examiners met with Westernbank’s management to discuss
alternate funding sources, and meeting participants concluded that without the ability to
obtain and roll over brokered deposits, the bank could not survive. The bank was in the
process of analyzing loans available to pledge as collateral to the FHLB and the Federal
Reserve Bank. However, the bank’s ability to obtain additional capacity at the FHLB or
any borrowings from the discount window was questionable given the asset quality
deterioration. In short, the bank’s continued dependence on brokered deposits raised
liquidity concerns because of the bank’s poor financial condition. The examination
recommended that management revisit and document the adequacy of the bank’s liquidity
risk limits based on the bank’s current poor financial condition and contingent liquidity
needs.

In addition, the May 2009 C&D contained provisions that required the bank, within 60
days of the effective date of the C&D, to submit in writing to the Regional Director an
acceptable, comprehensive liquidity contingency plan. The plan needed to:

   address the means by which the bank would reduce its reliance on non-core funding
    and high-cost, rate-sensitive deposits;

   assess possible liquidity events that the bank might encounter; and

   identify responses to the potential impact of such events on the bank’s short-term,
    intermediate-term, and long-term liquidity profile.

In response to the C&D, Westernbank submitted an updated liquidity contingency plan in
July 2009 but the plan was based on the premise that the bank would remain a viable
financial institution. However, the continued deterioration of asset quality led to
deficient capital, and Westernbank’s access to external funding sources was limited.
Eventually, Westernbank’s liquidity became insufficient to sustain operations.

On August 20, 2009, the FDIC sent a letter related to section 337.6 of the FDIC Rules
and Regulations describing deposit pricing restrictions for banks that are less than Well


                                            27
Capitalized. The FDIC performed a visitation on October 26, 2009 that focused on
assessing the bank’s liquidity position and compliance with the brokered deposit waiver.
The visitation noted that the bank’s liquidity remained deficient due to an extremely high
dependence on brokered deposits and the less than Well Capitalized PCA designation.
The visitation findings also indicated that the bank did not possess sufficient liquid assets
and borrowing capacity to remain viable for any length of time without a brokered
deposit waiver.

Brokered Deposit Waivers

As discussed earlier in this report, the May 2009 C&D included a capital provision that
effectively changed the bank’s capital level from Well Capitalized to Adequately
Capitalized. Thus, Westernbank was prohibited from accepting, renewing, or rolling
over brokered deposits without receiving a brokered deposit waiver from the FDIC. The
FDIC approved three brokered deposit waivers between May 2009 and March 2010, as
follows:

   On April 17, 2009, Westernbank submitted its first brokered deposit waiver
    application. Initially, the bank requested the ability to renew/roll over 100 percent of
    maturing brokered deposits until the bank returned to the Well Capitalized
    designation. However, in order to reduce risk to the DIF, the FDIC advised
    management to limit the brokered deposit waiver request. Westernbank subsequently
    revised its application and requested the ability to renew or roll over 50 percent of
    maturing brokered deposits, or $1.5 billion over the next 6 months, or through
    November 30, 2009. The FDIC approved the revised brokered deposit waiver on
    May 22, 2009.

   On November 4, 2009, the FDIC received Westernbank’s second brokered deposit
    waiver application. This application was approved on December 9, 2009 and allowed
    the bank to renew or roll over 75 percent, or up to $1.26 billion of brokered deposits
    that matured from December 1, 2009 through March 31, 2010.

   On March 9, 2010, the FDIC received the bank’s third brokered deposit waiver
    application. This application was approved on March 29, 2010, and allowed the bank
    to renew/roll over 75 percent, or up to $268 million of brokered deposits that mature
    in April 2010.

In each case, the FDIC concluded that the brokered deposit waiver would not result in an
unsafe or unsound practice.

Preliminary results of the May 2009 TAQR identified substantial deterioration in the
bank’s loan portfolio and the overall financial condition of the institution. Further,
examiners believed that the bank’s capital ratios were likely inflated due to deficiencies
associated with the bank’s FAS 114 analysis and may have fallen to Undercapitalized.
As previously discussed, an Undercapitalized insured depository institution is prohibited
from accepting, renewing, or rolling over any brokered deposits. The preliminary results
of the TAQR were significantly different from internal bank classifications, which had


                                             28
relied on stale appraisals. Accordingly, to ensure the accuracy of its analysis by allowing
management time to obtain new appraisals, the FDIC decided to roll the May 2009
TAQR results into the November 16, 2009 full-scope examination. Further, the FDIC
initiated a horizontal review of CRE loan classifications at Westernbank, Eurobank, and
R-G Premier in January 2010.

According to Part 325 of the FDIC’s Rules and Regulations,16 a bank is deemed to be
within a given capital category for purposes of section 38 of the FDI Act as of the most
recent date that:

    a Call Report is required to be filed with the FDIC;

    a final report of examination is delivered to the bank; or

    written notice is provided by the FDIC to the bank of its capital category for purposes
     of section 38 of the FDI Act.

In this case, the FDIC did not hold an exit meeting with management to discuss findings
of the 2009 examination until April 27, 2010 when findings were finalized and, at that
time, hand-delivered a letter notifying the bank of its new PCA capital category,
Significantly Undercapitalized, and brokered deposit restrictions.

Supervisory Lessons Learned

Liquidity risk is defined as the risk that an institution’s financial condition or overall
safety and soundness is adversely affected by an inability (or perceived inability) to meet
obligations. In hindsight, earlier supervisory action to address Westernbank’s increasing
dependence on brokered deposits may have been prudent, especially considering that
Westernbank used brokered deposits not just to sustain operations but to fund aggressive
growth in higher-risk CRE and ADC lending, which can increase a bank’s vulnerability
to economic conditions. To that end, a more forward-looking approach to liquidity
planning might have been beneficial in prompting the bank to take earlier action to
reduce its dependence on this funding. The FDIC has taken a number of actions to
increase supervisory attention to banks that have risk profiles similar to Westernbank.
The FDIC has issued the Policy Statement on Funding and Liquidity Risk Management,17
which stresses that changes in economic conditions, among other things, can affect an
institution’s liquidity risk profile and should be considered in the assessment of liquidity.

Implementation of PCA

Section 38, Prompt Corrective Action, of the FDI Act establishes a framework of
mandatory and discretionary supervisory actions pertaining to all insured depository

16
   For purposes of section 29 of the FDI Act and section 337.6, the terms Well Capitalized, Adequately
Capitalized, and Undercapitalized, have the same meaning to each insured depository institution as
provided under regulations implementing section 38 of the FDI Act.
17
   This policy statement was issued by Federal banking agencies on March 17, 2010.


                                                    29
institutions. The section requires that regulators take progressively more severe actions,
known as “prompt corrective actions,” as an institution’s capital level deteriorates. The
purpose of section 38 is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. Part 325, Capital Maintenance, of the FDIC’s Rules
and Regulations, defines the capital measures used in determining the supervisory actions
that will be taken pursuant to section 38 for FDIC-supervised institutions. Part 325 also
establishes procedures for the submission and review of capital restoration plans and for
the issuance of directives and orders pursuant to section 38.

Based on the supervisory actions taken with respect to Westernbank, the FDIC properly
implemented applicable PCA provisions of section 38. Westernbank was considered
Well Capitalized for PCA purposes until April 16 2009. Table 4 illustrates
Westernbank’s capital levels from 2008 to 2010.

Table 4: Westernbank’s Capital Categories, 2008 to 2010
                                                        Tier 1
                                         Tier 1         Risk-        Total Risk-         Capital
            Exam /Visit Date            Leverage        Based          Based          Classification
    Well-Capitalized Threshold            ≥ 5%          ≥ 6%           ≥ 10%
    9/29/2008 Joint Examination            5.55          8.88           10.15      Well Capitalized
                                                                                   Adequately
    11/03/2009 TAQR                        5.73           9.23          10.50
                                                                                   Capitalized
                                                                                   Significantly
    4/27/2010 PCA Notification Letter      3.67           5.54           6.83
                                                                                   Undercapitalized
Source: ROEs, TAQR, and UBPRs for Westernbank.

Westernbank was considered Well Capitalized at its September 2008 joint examination.18
However, as previously mentioned in this report, as a result of the May 2009 C&D, the
bank effectively became Adequately Capitalized for PCA purposes and remained so until
April 2010. The C&D included a capital provision that specifically directed
Westernbank to increase and maintain a Tier 1 Leverage Capital ratio of at least 6 percent
by March 31, 2010. The C&D also required the institution to develop a liquidity
contingency plan to reduce its reliance on brokered deposits. The following summarizes
the FDIC’s monitoring activities related to the C&D capital provision:

      August 10, 2009. FDIC officials met with senior bank management to discuss capital
       initiatives being explored. Management stated that approximately $15 million in
       capital would be transferred from the holding company. In addition, management
       indicated that it was pursuing expansion of the FHLB Borrowing line.

      November 2, 2009. The FDIC sent a letter to the Board outlining deficiencies with
       the bank’s proposed capital plan.



18
  Westernbank submitted an application for assistance under the Troubled Asset Relief Program (TARP)
on October 22, 2008 for funding of $250 million. The FDIC was in the process of reviewing the
application when Westernbank withdrew its TARP application on December 19, 2008.


                                                  30
   March 29, 2010. FDIC officials again met with senior bank management to discuss
    capital-raising initiatives.

   April 15, 2010. The FDIC advised the bank that its capital plan was unacceptable
    and requested that the bank immediately provide the FDIC with its plans to contribute
    capital and/or sell itself or merge with another federally insured depository institution.

On April 27, 2010, Westernbank was informed that the bank’s PCA capital category had
fallen to Significantly Undercapitalized and the bank was closed on April 30, 2010.


Corporation Comments
After we issued our draft report, management provided additional information for our
consideration, and we revised our report to reflect this information, as appropriate. On
December 2, 2010, the Director, DSC, provided a written response to the draft report.
That response is provided in its entirety as Appendix 5 of this report. DSC reiterated the
OIG’s conclusions regarding the causes of Westernbank’s failure. With regard to our
assessment of the FDIC’s supervision of Westernbank, DSC summarized its supervisory
approach and the progression of component and composite rating downgrades that began
in 2006. DSC’s response also described enforcement actions taken at subsequent
examinations because of the bank’s failure to adequately address supervisory
recommendations and enforcement measures. Further, DSC’s response stated that
supervisory guidance has been issued to enhance supervision of institutions, such as
Westernbank, with heavy reliance on volatile funding sources. In addition, DSC stated it
has completed an examiner training program, as discussed in our report, which
emphasizes a forward-looking approach when assessing a bank’s risk profile. The early
use of informal enforcement actions to pursue corrective of weak risk management
practices is consistent with forward-looking supervision.




                                             31
                                                                               Appendix 1

                     Objectives, Scope, and Methodology

Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, as amended by
the Financial Reform Act, which provides, in general, that if the DIF incurs a material
loss with respect to an insured depository institution, the Inspector General of the
appropriate federal banking agency shall prepare a report to that agency reviewing the
agency’s supervision of the institution. The Financial Reform Act amends section 38(k)
of the FDI Act by increasing the MLR threshold from $25 million to $200 million for
losses that occur for the period January 1, 2010 through December 31, 2011. The
FDI Act requires that the report be completed within 6 months after it becomes apparent
that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
institution, including implementation of the PCA provisions of section 38.

We conducted this performance audit from July 2010 to November 2010 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Scope and Methodology

The scope of this audit included an analysis of Westernbank operations from 2005 until
its failure on April 30, 2010. Our review also entailed an evaluation of the regulatory
supervision of the institution over the same period.

To achieve the objectives, we performed the following procedures and techniques:

        Analyzed examination reports prepared by the FDIC and the OCFI examiners
         from 2005 to 2009.

        Reviewed the following:

              Bank data and correspondence maintained at the FDIC’s New York Regional
               Office and San Juan, Puerto Rico Field Office.

              Reports prepared by the Division of Resolutions and Receiverships (DRR)
               and DSC relating to the bank’s closure.

              Pertinent DSC policies and procedures and various banking laws and
               regulations.



                                             32
                                                                             Appendix 1

                     Objectives, Scope, and Methodology

        Interviewed the following FDIC officials:

              DSC management in Washington, D.C. and the New York Regional Office
               and San Juan, Puerto Rico Field Office.

              FDIC examiners from the New York Regional Office and San Juan, Puerto
               Rico Field Office, who participated in examinations or reviews of
               examinations of Westernbank.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports,
examination reports, and interviews of examiners to understand Westernbank’s
management controls pertaining to causes of failure and material loss as discussed in the
body of this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination reports, correspondence files, and
testimonial evidence to corroborate data obtained from systems that were used to support
our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act. The results of our tests were discussed,
where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
related to our objectives in the course of evaluating audit evidence.




                                            33
                                                                             Appendix 1

                   Objectives, Scope, and Methodology

Related Coverage of Financial Institution Failures

On May 1, 2009, the OIG issued an internal memorandum that outlined major causes,
trends, and common characteristics of FDIC-supervised financial institution failures that
had resulted in a material loss to the DIF. The memorandum also indicated that the OIG
planned to provide more comprehensive coverage of those issues and make related
recommendations, when appropriate. Since May 1, 2009, the OIG has issued additional
MLR reports related to failures of FDIC-supervised institutions and these reports can be
found at www.fdicig.gov. In June 2010, the OIG initiated an audit, the objectives of
which are to (1) determine the actions that the FDIC has taken to enhance its supervision
program since May 2009, including those specifically in response to the May 2009
memorandum, and (2) identify trends and issues that have emerged from subsequent
MLRs.

In addition, with respect to more comprehensive coverage of specific issues, in
May 2010, the OIG initiated an evaluation of the role and federal regulators’ use of the
Prompt Regulatory Action provisions of the FDI Act (section 38, PCA and section 39,
Standards for Safety and Soundness) in the banking crisis.




                                            34
                                                                                 Appendix 2

                               Glossary of Terms

Term                                               Definition
Acquisition,     ADC loans are a component of Commercial Real Estate that provide
Development,     funding for acquiring and developing land for future construction, and that
and              provide interim financing for residential or commercial structures.
Construction
(ADC) Loans
Adversely        Assets subject to criticism and/or comment in an examination report.
Classified       Adversely classified assets are allocated on the basis of risk (lowest to
Assets           highest) into three categories: Substandard, Doubtful, and Loss.

Allowance for    The ALLL is an estimate of uncollectible amounts that is used to reduce the
Loan and Lease   book value of loans and leases to the amount that is expected to be
Losses (ALLL)    collected. It is established in recognition that some loans in the institution’s
                 overall loan and lease portfolio will not be repaid. Boards of directors are
                 responsible for ensuring that their institutions have controls in place to
                 consistently determine the allowance in accordance with the institutions’
                 stated policies and procedures, generally accepted accounting principles,
                 and supervisory guidance.

Bank Board       A Bank Board Resolution is an informal commitment adopted by a financial
Resolution       institution’s Board of Directors (often at the request of the FDIC) directing
(BBR)            the institution’s personnel to take corrective action regarding specific noted
                 deficiencies. A BBR may also be used as a tool to strengthen and monitor
                 the institution’s progress with regard to a particular component rating or
                 activity.
Bank Secrecy     Congress enacted the BSA of 1970 to prevent banks and other financial
Act (BSA)        service providers from being used as intermediaries for, or to hide the
                 transfer or deposit of money derived from, criminal activity. The BSA
                 requires financial institutions to maintain appropriate records and to file
                 certain reports, including cash transactions over $10,000 via the Currency
                 Transactions Reports (CTR). These reports are used in criminal, tax, or
                 regulatory investigations or proceedings.
Call Report      Reports of Condition and Income, often referred to as Call Reports, include
                 basic financial data for insured commercial banks in the form of a balance
                 sheet, an income statement, and supporting schedules. According to the
                 Federal Financial Institutions Examination Council’s (FFIEC) instructions
                 for preparing Call Reports, national banks, state member banks, and insured
                 nonmember banks are required to submit a Call Report to the FFIEC’s
                 Central Data Repository (an Internet-based system used for data collection)
                 as of the close of business on the last day of each calendar quarter.




                                            35
                                                                                  Appendix 2

                                Glossary of Terms


Cease and         A C&D is a formal enforcement action issued by a financial institution
Desist Order      regulator pursuant to 12 U.S.C. section 1818 to a bank or affiliated party to
(C&D)             stop an unsafe or unsound practice or a violation of laws and regulations. A
                  C&D may be terminated when the bank’s condition has significantly
                  improved and the action is no longer needed or the bank has materially
                  complied with its terms.

Commercial        CRE loans are land development and construction loans (including 1-to-4
Real Estate       family residential and commercial construction loans) and other land loans.
(CRE) Loans       CRE loans also include loans secured by multifamily property and nonfarm
                  nonresidential property, where the primary source of repayment is derived
                  from rental income associated with the property or the proceeds of the sale,
                  refinancing, or permanent financing of the property.

Concentration     A concentration is a significantly large volume of economically related
                  assets that an institution has advanced or committed to a certain industry,
                  person, entity, or affiliated group. These assets may, in the aggregate,
                  present a substantial risk to the safety and soundness of the institution.

Contingency       A written plan that defines strategies for addressing liquidity shortfalls in
Funding (or       emergency situations. Such plans delineate policies to manage a range of
Liquidity) Plan   stress environments, establish clear lines of responsibility, and articulate
                  clear implementation and escalation procedures. Contingency funding
                  plans should be regularly tested and updated to ensure that they are
                  operationally sound. DSC uses the term contingency funding plan and
                  contingency liquidity plan interchangeably.

Criticized        Criticized assets include all assets rated special mention, substandard,
Assets            doubtful, and loss. The Board of Governors of the Federal Reserve System,
                  the FDIC, the Office of the Comptroller of the Currency, and the Office of
                  Thrift Supervision (the agencies) Uniform Loan Classification Standards,
                  along with the agencies’ examination manuals, define these risk rating
                  classifications.

FDIC’s            The FDIC’s supervision program promotes the safety and soundness of
Supervision       FDIC-supervised institutions, protects consumers’ rights, and promotes
Program           community investment initiatives by FDIC-supervised institutions. The
                  FDIC’s Division of Supervision and Consumer Protection (DSC) (1)
                  performs examinations of FDIC-supervised institutions to assess their
                  overall financial condition, management policies and practices (including
                  internal control systems), and compliance with applicable laws and
                  regulations and (2) issues related guidance to institutions and examiners.




                                             36
                                                                                 Appendix 2

                              Glossary of Terms


Federal Home     FHLBs provide long- and short-term advances (loans) to their members.
Loan Bank        Advances are primarily collateralized by residential mortgage loans, and
(FHLB)           government and agency securities. Community financial institutions may
                 pledge small business, small farm, and small agri-business loans as
                 collateral for advances. Advances are priced at a small spread over
                 comparable U.S. Department of the Treasury obligations.

Financial        A financial entity engaged in a broad range of banking-related activities,
Holding          created by the Gramm-Leach-Bliley Act of 1999. These activities include:
Company          insurance underwriting, securities dealing and underwriting, financial and
                 investment advisory services, merchant banking, issuing or selling
                 securitized interests in bank-eligible assets, and generally engaging in any
                 non-banking activity authorized by the Bank Holding Company Act. The
                 Federal Reserve Board is responsible for supervising the financial condition
                 and activities of financial holding companies.

Global Cash      A global cash flow analysis is a comprehensive evaluation of borrower
Flow Analysis    capacity to perform on a loan. During underwriting, proper global cash
                 flow must thoroughly analyze projected cash flow and guarantor support.
                 Beyond the individual loan, global cash flow must consider all other
                 relevant factors, including: guarantor’s related debt at other financial
                 institutions, future economic conditions, as well as obtaining current and
                 complete operating statements of all related entities. In addition, global
                 cash flow analysis should be routinely conducted as a part of credit
                 administration. The extent and frequency of global cash flow analysis
                 should be commensurate to the amount of risk associated with the particular
                 loan.

Growth           GMS is an offsite rating tool that identifies institutions experiencing rapid
Monitoring       growth or having a funding structure highly dependent on non-core funding
System (GMS)     sources.

Large Insured    The FDIC established the LIDI program to assess and report on emerging
Depository       risks at all institutions with total assets of $10 billion or more as well as
Institution      other selected institutions. Under this program, regional case managers
(LIDI) Program   perform ongoing analyses of emerging risks within each insured institution
                 and assign a quarterly risk rating. Case managers also maintain contact
                 with the primary federal regulator for each institution in the LIDI program.
                 Data obtained through this program are analyzed and key issues are
                 reported to corporate executives regularly for use in policy and operational
                 discussions. In addition, senior financial institution analysts with the
                 Complex Financial Institutions Branch complete offsite analyses in order to
                 meet the Corporation’s risk information needs and form appropriate
                 supervisory strategies.
Loan-to-Value    A ratio for a single loan and property calculated by dividing the total loan
                 amount at origination by the market value of the property securing the
                 credit plus any readily marketable collateral or other acceptable collateral.


                                            37
                                                                                 Appendix 2

                              Glossary of Terms


Material Loss    As defined by section 38(k)(2)(B) of the FDI Act, and as amended by the
                 Dodd-Frank Wall Street Reform and Consumer Protection Act, for the
                 period beginning January 1, 2010 and ending December 31, 2011, a
                 material loss is defined as any estimated loss in excess of $200 million.

Memorandum       A Memorandum of Understanding is an informal agreement between the
of               institution and the FDIC, which is signed by both parties. The State
Understanding    Authority may also be party to the agreement. MOUs are designed to
                 address and correct identified weaknesses in an institution’s condition.
(MOU)
Nonaccrual       The status of an asset, often a loan, which is not earning the contractual rate
Status           of interest in the loan agreement, due to financial difficulties of the
                 borrower. Typically, interest accruals have been suspended because full
                 collection of principal is in doubt, or interest payments have not been made
                 for a sustained period of time. Loans with principal and interest unpaid for
                 at least 90 days are generally considered to be in a nonaccrual status.

Offsite Review   The FDIC’s Offsite Review Program is designed to identify emerging
Program          supervisory concerns and potential problems so that supervisory strategies
                 can be adjusted appropriately. Offsite reviews are performed quarterly for
                 each bank that appears on the Offsite Review List. Regional management is
                 responsible for implementing procedures to ensure that Offsite Review
                 findings are factored into examination schedules and other supervisory
                 activities.

Peer Group       Institutions are assigned to 1 of 15 peer groups based on asset size, number
                 of branches, and whether the institution is located in a metropolitan or non-
                 metropolitan area.

Problem Bank     A problem bank memorandum documents the FDIC’s concerns with an
Memorandum       institution and the corrective action in place or to be implemented and is
                 also used to effect interim rating changes on the FDIC’s systems.

Prompt           The purpose of PCA is to resolve the problems of insured depository
Corrective       institutions at the least possible long-term cost to the Deposit Insurance
Action (PCA)     Fund. Part 325, subpart B, of the FDIC Rules and Regulations, 12 Code of
                 Federal Regulations, section 325.101, et. seq., implements section 38,
                 Prompt Corrective Action, of the FDI Act, 12 United States Code section
                 1831(o), by establishing a framework for determining capital adequacy and
                 taking supervisory actions against depository institutions that are in an
                 unsafe or unsound condition. The following terms are used to describe
                 capital adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                 (3) Undercapitalized, (4) Significantly Undercapitalized, and (5) Critically
                 Undercapitalized.




                                            38
                                                                                  Appendix 2

                               Glossary of Terms


Real Estate      REST attempts to simulate what would happen to banks today if they
Stress Test      encountered a real estate crisis similar to that of New England in the early
(REST)           1990s. REST uses statistical techniques to forecast an institution’s
                 condition over a 3- to 5-year horizon and provides a single rating from 1 to
                 5 in descending order of performance quality.

Risk-Based       Appendix A to Part 325—Statement of Policy on Risk-Based Capital—
Capital Rules    defines the FDIC’s risk-based capital rules. Appendix A states an
                 institution’s balance sheet assets and credit equivalent amounts of off-
                 balance sheet items are assigned to broad risk categories according to the
                 obligor or, if relevant, the guarantor or the nature of the collateral. The
                 aggregate dollar amount in each category is then multiplied by the risk
                 weight assigned to that category. The resulting weighted values from each
                 of the four risk categories are added together and this sum is the risk-
                 weighted assets total that, as adjusted, comprises the denominator of the
                 risk-based capital ratio. The institution’s qualifying total capital base is the
                 numerator of the ratio.

Statistical      SCOR is a financial model that uses statistical techniques, offsite data, and
CAMELS           historical examination results to measure the likelihood that an institution
Offsite Rating   will receive a CAMELS downgrade at the next examination.
(SCOR) System
Tier 1 (Core)    Defined in Part 325 of the FDIC Rules and Regulations, 12 C.F.R. section
Capital          325.2(v), as
                 The sum of:
                 • Common stockholder’s equity (common stock and related surplus,
                 undivided profits, disclosed capital reserves, foreign currency translation
                 adjustments, less net unrealized losses on available-for-sale securities with
                 readily determinable market values);
                 • Non-cumulative perpetual preferred stock; and
                 • Minority interest in consolidated subsidiaries;
                 Minus:
                 • Certain intangible assets;
                 • Identified losses;
                 • Investments in securities subsidiaries subject to section 337.4; and
                 • Deferred tax assets in excess of the limit set forth in section 325.5(g).
Troubled Asset   TARP is a program of the United States Department of the Treasury to
Relief Program   purchase assets and equity from financial institutions to strengthen the
(TARP)           financial sector.

Uniform Bank     The UBPR is an individual analysis of financial institution financial data
Performance      and ratios that includes extensive comparisons to peer group performance.
Report (UBPR)    The report is produced by the Federal Financial Institutions Examination
                 Council for the use of banking supervisors, bankers, and the general public
                 and is produced quarterly from Call Report data submitted by banks.


                                            39
                                                                               Appendix 2

                             Glossary of Terms


Uniform         Financial institution regulators and examiners use the Uniform Financial
Financial       Institutions Rating System (UFIRS) to evaluate a bank’s performance in six
Institutions    components represented by the CAMELS acronym: Capital adequacy,
Rating System   Asset quality, Management practices, Earnings performance, Liquidity
                position, and Sensitivity to market risk. Each component, and an overall
(UFIRS)
                composite score, is assigned a rating of 1 through 5, with 1 having the least
                regulatory concern and 5 having the greatest concern.

Wholesale       Wholesale funding sources include, but are not limited to, Federal funds,
Funding         public funds, Federal Home Loan Bank advances, the Federal Reserve’s
                primary credit program, foreign deposits, brokered deposits, and deposits
                obtained through the Internet or CD listing services. Financial institutions
                may use wholesale funding sources as an alternative to core deposits to
                satisfy funding and liability management needs.




                                          40
                                                                       Appendix 3

                               Acronyms

ABL      Asset-Based Lending

ADC      Acquisition, Development, and Construction

ALLL     Allowance for Loan and Lease Losses

ASC      Accounting Standard Codification

C&D      Cease and Desist Order

C&I      Commercial and Industrial

CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity and Sensitivity to
         Market Risk

CRE      Commercial Real Estate

DIF      Deposit Insurance Fund

DRR      Division of Resolutions and Receiverships

DSC      Division of Supervision and Consumer Protection

FAS      Financial Accounting Standards

FDI      Federal Deposit Insurance

FHLB     Federal Home Loan Bank

FIL      Financial Institution Letter

GBD      Government Development Bank

GMS      Growth Monitoring System

LTV      Loan-to-Value

MLR      Material Loss Review

MOU      Memorandum of Understanding

NYRO     New York Regional Office



                                        41
                                                                     Appendix 3

                             Acronyms


        Office of the Commissioner of Financial Institutions of the Commonwealth of
OCFI
        Puerto Rico

OIG     Office of Inspector General

PCA     Prompt Corrective Action

PRIC    Puerto Rico Investment Companies

REST    Real Estate Stress Test

ROE     Report of Examination

RRC     Regional Risk Committee

SCOR    Statistical CAMELS Offsite Rating System

TAQR    Targeted Asset Quality Review

TARP    Troubled Asset Relief Program

UBPR    Uniform Bank Performance Report

UFIRS   Uniform Financial Institutions Rating System

U.S.    United States




                                      42
                                                                                     Appendix 4

                 Examiner Comments in Reports of Examination


                                                 ROE Dates      2005   2006   2007   2008   2009
                     Deficiency/Risk
Administration Weaknesses in Business Credit Division/ABL                          
Concentration in CRE and ADC Loans                                                     
Concentration of Other Credit – Other Financial Institutions                            
Loan Underwriting                                                                         
Overall Weak/Liberal Underwriting Deficiencies                                         
Interest Reserves/Lack of Justification for Replenishing                                
Inadequate Appraisal Program/Review                                                     
High LTV                                                                                
Loans without Adequate Owner Equity in Underlying Real
                                                                                        
  Estate Collateral/Questionable Liquidation Value
 Credit Administration                                                                    
Inadequate Internal Loan Review                                                      
Inadequate identification of all credit weaknesses and policy
                                                                                         
 exceptions.
Improper accounting treatment of Doral and R-G Premier loan
                                                                                         
 purchases
Inadequate ALLL Methodology                                                            
Improper Capitalization of Interest and Past Due Payments                               
Inadequate Loan Administration                                                        
Increased oversight/monitoring/tracking of CRE/ADC
                                                                                        
 concentration needed
Increase in Past-Due and Non-Accrual Loans                                              
Lack of Disposition of Classified Assets                                                
Overlending                                                                              
Failure to Enforce Liquidation Programs                                                  
Inadequate or the Lack of Global Cash Flow
 Analysis/Repayment Capacity/Borrower Equity
                                                                                         
Apparent Violations or Contraventions                                                     
Part 365 Part A – Real Estate Lending Standards                                         
Contravention of the FDIC Statement of Policy –Guidance for
                                                                                        
 maintaining ALLL at an appropriate level
Interagency Appraisal and Evaluation Guidelines                                         
Banking Law of Puerto Rico – Legal Lending Limits                                       
Banking Law of Puerto Rico – Legal Reserve                                               
Part 323-Appraisal Violation                                                             
Part 363 – Filing of Annual Reports                                                      
Source: Examination reports for Westernbank.
                                                            




                                                           43
                                                                                          Appendix 5

                                     Corporation Comments




Federal Deposit Insurance Corporation
   550 17th Street NW, Washington, D.C. 20429-9990                 Division of Supervision and Consumer Protection

                                                                           December 1, 2010
TO:               Stephen Beard
                  Assistant Inspector General for Material Loss Reviews

                  /Signed/
FROM:             Sandra L. Thompson [signed by Sandra L. Thompson]
                  Director

SUBJECT:          FDIC Response to the Draft Audit Report Entitled, Material Loss Review of Westernbank,
                  Mayaguez, Puerto Rico (Assignment No. 2010-069)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, and as amended by the Dodd-Frank Wall Street
Reform and Consumer Protection Act, the Federal Deposit Insurance Corporation’s Office of Inspector General
(OIG) conducted a material loss review of Westernbank, Mayaguez, Puerto Rico, which failed on April 30,
2010. This memorandum is the response of the Division of Supervision and Consumer Protection (DSC) to the
OIG’s Draft Report (Report) received on November 10, 2010.

Westernbank failed because the Board’s and management’s lending strategy focused on growth without
ensuring that credit risk management practices kept pace with the changing loan portfolio. Weaknesses in
Westernbank’s loan review function resulted in significant losses in its asset-based lending portfolio, eventually
leading to the cessation of this type of lending. Westernbank then refocused its lending activities into
acquisition, development and construction and commercial real estate, without enhancing its credit risk
management practices. Deficiencies in these practices played a key role in Westernbank’s failure, resulting in
loan losses that were accelerated by the weak economic environment and strained real estate market. Erosion of
capital associated with loan losses restricted and eventually prohibited Westernbank from renewing its brokered
deposits, which it relied upon to support its operations. Ultimately, Westernbank was not considered viable
because of its deteriorating asset quality, poor earnings and inadequate capital.

The FDIC’s supervisory attention to Westernbank was extensive, and included onsite joint annual examinations
with the Office of the Commissioner of Financial Institutions of the Commonwealth of Puerto Rico (OCFI),
offsite monitoring activities and targeted asset quality reviews. Beginning with the 2006 examination, the asset
quality component and composite ratings were downgraded based on weaknesses in the loan review function.
Weaknesses persisted, and the FDIC and OCFI continued to progressively downgrade component and
composite ratings and used enforcement actions to secure Westernbank’s correction of deficiencies.
Westernbank’s Board and management failed to adequately address supervisory recommendations and
enforcement measures.

DSC issued a Financial Institution Letter in 2009 on The Use of Volatile or Special Funding Sources by
Financial Institutions That Are in a Weakened Condition to enhance our supervision of institutions, such as
Westernbank, with heavy reliance on volatile funding sources. Additionally, DSC has completed an examiner
training program that emphasizes a forward looking approach when assessing a bank’s risk profile. The training
reinforced consideration of risk management practices in conjunction with current financial performance,
conditions, or trends when assigning ratings and contemplating corrective actions. The early use of informal
enforcement actions to pursue correction of weak risk management practices is consistent with forward looking
supervision.

Thank you for the opportunity to review and comment on the Report

                                                     44
